<html>
<title> - HEARING ON ENERGY REDUCTION AND ENVIRONMENTAL SUSTAINABILITY IN SURFACE TRANSPORTATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                          ENERGY REDUCTION AND
                      ENVIRONMENTAL SUSTAINABILITY
                       IN SURFACE TRANSPORTATION

=======================================================================

                                (111-3)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure






                  U.S. GOVERNMENT PRINTING OFFICE
46-952 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
ELLEN O. TAUSCHER, California        HOWARD COBLE, North Carolina
TIM HOLDEN, Pennsylvania             JERRY MORAN, Kansas
BRIAN BAIRD, Washington              GARY G. MILLER, California
MICHAEL E. CAPUANO, Massachusetts    HENRY E. BROWN, Jr., South 
TIMOTHY H. BISHOP, New York          Carolina
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
BRIAN HIGGINS, New York              TODD RUSSELL PLATTS, Pennsylvania
GRACE F. NAPOLITANO, California      BILL SHUSTER, Pennsylvania
DANIEL LIPINSKI, Illinois            JOHN BOOZMAN, Arkansas
MAZIE K. HIRONO, Hawaii              SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
HEATH SHULER, North Carolina         MARIO DIAZ-BALART, Florida
MICHAEL A ARCURI, New York           CHARLES W. DENT, Pennsylvania
HARRY E. MITCHELL, Arizona           CONNIE MACK, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
LAURA A. RICHARDSON, California      MARY FALLIN, Oklahoma
ALBIO SIRES, New Jersey              VERN BUCHANAN, Florida
DONNA F. EDWARDS, Maryland           ROBERT E. LATTA, Ohio
GENE TAYLOR, Mississippi             AARON SCHOCK, Illinois
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)









                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Aggarwala, Rohit, Director, New York City Office of Long Term 
  Planning and Sustainability....................................     3
Banks, Sharon, Chief Executive Officer, Cascade Sierra Solutions, 
  Coburg, Oregon.................................................    44
Hansen, Fred, General Manager, TriMet, Portland, Oregon..........     3
Hodges, Tommy, Chairman, Titan Transfer, Inc., Shelbyville, 
  Tennessee......................................................    44
Lovaas, Deron, Federal Transportation Policy Director, National 
  Resources Defense Council......................................     3
Porcari, Hon. John D., Secretary of Transportation, Maryland 
  Department of Transporation....................................     3
Schaffer, Dan, Product Manager, TX Active ESSROC Italcementi 
  Group, Nazareth, Pennsylvania..................................    44
Staley, Samuel R., Ph.D., Director, Urban and Land Use Policy, 
  Reason Foundation, Los Angeles, California.....................     3
Tilley, Dave, President, Crawford Green Systems, Wilmington, 
  Delaware.......................................................    44

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry E., of Arizona..............................    60
Oberstar, Hon. James L., of Minnesota............................    61
Richardson, Hon. Laura A., of California.........................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Aggarwala, Rohit.................................................    72
Banks, Sharon....................................................    74
Hansen, Fred.....................................................    82
Hodges, Tommy....................................................    99
Lovaas, Deron....................................................   112
Porcari, Hon. John D.............................................   132
Schaffer, Dan....................................................   141
Staley, Samuel R., Ph.D..........................................   151
Tilley, Dave.....................................................   157

                       SUBMISSIONS FOR THE RECORD

Hansen, Fred, General Manager, TriMet, Portland, Oregon, response 
  to request for information from Rep. Dent......................    97
Tilley, Dave, President, Crawford Green Systems, Wilmington, 
  Delaware, response to request for information from Rep. Hare...   159

                        ADDITIONS TO THE RECORD

Arlington County Government, Division of Transportation, Dennis 
  Leach, Director, response to written testimony by Samuel R. 
  Staley, Ph.D...................................................   164
National Stone, Sand, and Gravel Association, Joy Wilson, 
  President and CEO, written statement...........................   166
Pollinator Partnership, Laurie Davies Adams, Executive Director, 
  written statement..............................................   172



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
HEARING ON ENERGY REDUCTION AND ENVIRONMENTAL SUSTAINABILITY IN SURFACE 
                             TRANSPORTATION

                              ----------                              


                       Tuesday, January 27, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Peter A. DeFazio 
[Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Subcommittee will come to order.
    Welcome, everyone, to the 111th Congress and to the first 
hearing in the Subcommittee of the 111th Congress. We held 
quite an extensive list of hearings in the last Congress, 
leading in anticipation of and leading up toward 
reauthorization. This is a continuation of that effort.
    Today, we are going to attempt to flesh out some ideas that 
could lead us to a more sustainable and more environmentally 
friendly transportation system for America that would lead us 
toward what I call the "least-cost transportation future," one 
where we assess all of our needs. Then, I would hope, without 
regard for all the myriad silos out there of funding, we would 
work with local communities and MPOs and with States to come up 
with the least-cost solution--the least cost in terms of 
dollars to taxpayers, the least cost in terms of impact on the 
environment, the least cost in terms of moving us toward a more 
fuel-efficient future with less contribution to carbon 
emissions.
    There is a lot of room for improvement in the system.
    We are going to do the hearing a little differently today 
after we hear from the Ranking Member, Mr. Duncan. My idea is, 
you have all submitted your written testimonies, and the 
Committee Members who are interested have read them. Rather 
than have you read back to us that which we have already read, 
it will be entered in the record. I thank you for those 
contributions. It will be a permanent part of the record.
    What I am going to ask every panel member to do is to think 
of the best parts in your written testimony and summarize them 
in 1 minute. You can either summarize your best ideas, your 
most cogent idea, or you can even respond to something someone 
else on the panel has raised or something that did not occur to 
you at the time you wrote your more lengthy treatise.
    So we will see how this format works. Hopefully, that way, 
we will get a little more interaction between Members and 
panelists and will come up with some great ideas.
    So, with that, I will turn to Mr. Duncan from Tennessee.
    Mr. Duncan. Well, thank you, Mr. Chairman for calling this 
hearing today on some of the challenges facing our 
transportation system. I certainly agree with you that we all 
need to seek the most cost-effective or least-cost methods of 
handling some of our work that needs to be done.
    I also want to thank all of the witnesses for being here 
today, but I especially want to welcome the member of the 
second panel who is from my home state of Tennessee, Mr. Tommy 
Hodges. Mr. Hodges served twice as Chairman of the Tennessee 
Trucking Association and has chaired the American Trucking 
Association Sustainability Task Force. He will be testifying 
today on the trucking industry's effort to reduce its carbon 
footprint.
    Our transportation system, everyone on this Committee and 
everyone in this room knows, is the backbone of our entire 
economy; and we need a successful and vibrant transportation 
system to provide the safe, efficient and reliable movement of 
people, goods and services.
    Also, as we know, our transportation system is facing many 
challenges, including increasing concerns about the decline in 
system performance, energy dependence and the environmental 
consequences of our system. We have got to look at all 
different types of solutions to these problems.
    We also need to take a look at the fact, as the National 
Journal reported several months ago, that two-thirds of the 
counties in the U.S. are losing population. There is tremendous 
growth in the circles around the urban areas, but outside of 
those circles, most of the small towns and rural areas are 
having real difficulties, and that is going to have 
consequences for our environment and for transportation 
policies.
    I do not think we want to force everyone into 25 major 
urban centers and leave the whole rest of the country totally 
empty. I think it would be better for our environment if we 
help people spread out and if we help some of these small towns 
and rural areas. They are not the kind of areas I represent. 
The area I represent happens to be one of the fastest growing 
in the country, but that provides challenges also.
    I think, overall, though--what I would say is that in 
regard to these things, we need mainly balance and common 
sense. I remember several years ago when I chaired the Aviation 
Subcommittee, we had testimony that the newest runway at the 
Atlanta airport took 14 years from conception to completion. It 
took only 99 construction days, which they did in 33 days, 
because they were so happy and relieved to get all of the final 
approvals, and it was almost entirely because of the 
environmental rules and regulations and red tape.
    Two years ago, on this Subcommittee, we had a hearing on a 
road project in California that was nearing completion in 2007. 
It started in 1990. There were these same types of problems.
    We all want to do good things for the environment. On the 
other hand, most of the people on this Committee want to see 
these projects completed in a cost-effective way and completed 
in shorter amounts of time.
    We had another hearing a few years ago on all of the things 
we do in this Committee, and we had witnesses in all of the 
different areas testify that all of these infrastructure 
projects were taking about three times as long as they were in 
other countries and were costing about three times as much, 
primarily because of the environmental rules and regulations 
and red tape. So we need a little balance and common sense 
because we cannot afford in today's economy for these projects 
to be delayed for too long or to cost three times as much as 
they should.
    So that is the kind of thing that we really need to look at 
and find if there is a faster and more cost-effective way that 
we can do all of the good things for the environment that 
everybody wants done.
    This is a very important hearing, and I thank you for 
calling it, and I look forward to hearing from the witnesses.
    Thank you very much.
    Mr. DeFazio. Okay. Thank you.
    With that, we will proceed to the 1-minute succinct and 
pithy summaries of our panel. So I will go first to the 
Honorable John D. Porcari, Secretary of Transportation for 
Maryland.

TESTIMONY OF HON. JOHN D. PORCARI, SECRETARY OF TRANSPORTATION, 
  MARYLAND DEPARTMENT OF TRANSPORATION; FRED HANSEN, GENERAL 
 MANAGER, TRIMET, PORTLAND, OREGON; ROHIT AGGARWALA, DIRECTOR, 
NEW YORK CITY OFFICE OF LONG TERM PLANNING AND SUSTAINABILITY; 
DERON LOVAAS, FEDERAL TRANSPORTATION POLICY DIRECTOR, NATIONAL 
    RESOURCES DEFENSE COUNCIL; AND SAMUEL R. STALEY, Ph.D., 
  DIRECTOR, URBAN AND LAND USE POLICY, REASON FOUNDATION, LOS 
                      ANGELES, CALIFORNIA

    Mr. Porcari. Thank you, Chairman DeFazio and Ranking Member 
Duncan.
    In 1 minute, what you pointed out is the least-cost 
transportation future, this kind of all-of-the-above solution 
where we should be looking across modal lines, whether it is 
freight movement or people movement, and finding the most 
efficient way to do it.
    The same is true of the environmental and mitigation side 
of it, whether it is decarbonizing fuel, reducing vehicle miles 
and travel growth, doubling transit ridership, doubling fuel 
efficiency or being smarter or more innovative at the State 
level on mitigation. As to how we spend our mitigation dollars, 
that all-of-the-above approach is really what we need to do. 
Every piece of that has a place in the process.
    Mr. DeFazio. Excellent.
    Mr. Hansen, see if you can top that.
    Mr. Hansen. Thank you, Mr. Chairman and Ranking Member 
Duncan. It is a pleasure to be able to be here.
    From the public transit standpoint, the future of our 
Nation in many ways does rely upon a dramatically expanded 
public transportation system. As Mr. Duncan pointed out, as we 
are seeing this country urbanize more, we need to be able to 
have that system really provide high-quality transportation 
options for all of our citizens. It must help reverse the 
threat of global climate change, and it must facilitate the 
integration of land use and transportation.
    From a public transit standpoint, we also need to be able 
to make sure that our operations are as sustainable as 
possible. The efforts that I am leading at APTA are really 
trying to be able to make sure those systems actually are 
sustainable as well. Thank you.
    Mr. DeFazio. We are really doing pretty good here. We are 
getting a lot out very quickly.
    Mr. Aggarwala, again, you either can summarize or you can 
begin to respond to other points and whether you agree or 
disagree. Go right ahead, sir.
    Mr. Aggarwala. Thank you, Mr. Chairman and Mr. Ranking 
Member.
    From the perspective of a large city like New York, which 
is already happily possessed of a highly sustainable 
transportation infrastructure that gives us a very low per 
capita carbon footprint, I think there are two key lessons and 
two things that we are working on as much as we can locally. 
But we need Federal help, and we look to a thoughtful 
reauthorization to help us with this.
    One is in integration. As Mr. Hansen pointed out, land use, 
vehicle policies, transit investments, all of these things have 
to fit together. What we really need in many ways are Federal 
policies that encourage that kind of performance-outcome-based 
thinking on the local level.
    The second, quite simply, is funding. One of the things 
that we tried in New York was congestion pricing. Well, it did 
not pass our State legislature. Whatever you think about it as 
a policy, it highlights the need that we need more investments 
if we are going to have a sustainable transportation future. 
Thank you.
    Mr. DeFazio. Excellent.
    Mr. Lovaas.
    Mr. Lovaas. Thank you, Mr. Chairman.
    Mr. DeFazio. Did I pronounce that correctly?
    Mr. Lovaas. "Love-us."
    Mr. DeFazio. "Love-us." Sorry.
    Mr. Lovaas. In transportation, this sector drives our oil 
dependence, and it drives up our carbon emissions. As such, we 
need to change course. The best lever with which to do that is 
Federal assistance, and the best policy solutions are ones that 
are going to combine a variety of approaches, as Secretary 
Porcari said.
    Among those that I focus on in my testimony are requiring 
that regional blueprints be established in order to coordinate 
land use and transportation policy, recognizing that 
transportation drives development and that they are 
inextricably linked anyway and that they should be planned in 
conjunction with one another.
    Road pricing is another policy that we favor so long as the 
revenues go to fund transportation alternatives, which is the 
third part of our policy solution package. We need a lot more 
investment in transportation alternatives to build out the 
second half of our system now that we have completed a world-
class system of interstate highways.
    Thank you.
    Mr. DeFazio. Okay.
    Dr. Staley.
    Mr. Staley. Thank you, Mr. Chairman.
    Really, I think there are two points that are central to my 
testimony. One is that, at the end of the day, transportation 
policy has to be about improving mobility; and we cannot lose 
sight of that even though we have other goals that we want to 
accomplish, including environmental mitigation and sustainable 
transportation. If we lose sight of mobility, we expose 
ourselves to serious risks in terms of economic 
competitiveness, not just among cities, but globally.
    The second point is, we need to recognize that these 
solutions to sustainable transportation are going to be very 
localized, very city-and-State specific. We are going to find 
that some metropolitan areas are going to need a lot of 
investment in transit and other types of alternatives. Other 
metropolitan areas are not going to need the same types of 
investments. So we need a framework that allows local areas to 
calibrate their response to sustainable transportation to 
particular needs.
    Thank you.
    Mr. DeFazio. Okay. So, just launching off that, then I 
think there would be some agreement here that we really need to 
move toward Federal direction that sets goals that are outcome-
based, but that are less prescriptive.
    What are the worst barriers any of you perceive with our 
current transportation policy? I think there is a spread of 
ideological viewpoints here, but there seems to be a pretty 
good consensus on where we need to be moving.
    What are the principal barriers you see? What should this 
Committee be addressing? How can we move toward something that 
is more outcome-based and more flexible?
    Mr. Hansen. Mr. Chairman, I think that you hit upon it when 
you mentioned least-cost planning. I think all us know how 
successful it has been within the energy field to be able to 
move toward conservation, but also to be able to have least-
cost planning work well.
    Our governor in Oregon, Governor Kulongoski, has proposed 
that as part of the way to be able to think about 
transportation investments, it must not only evaluate across or 
within modes, whether it be road or public transit. It must 
include going across modes; and it also must look at the land-
use connection, that is, the very ability to be able to see if, 
in fact, smarter land-use decisions can lower the demand for 
some of that transportation mechanism.
    It is certainly something we have been able to see in the 
Portland region that has been very successful when we have 
implemented it.
    Mr. DeFazio. Mr. Porcari, you offered the idea of a Federal 
investment to help States better coordinate. I think you said 
$100 million per year for the better coordination of 
transportation and land use. What are you really thinking about 
there? How would that work?
    Mr. Porcari. As has been pointed out, the nexus between 
transportation and land use is a really critical part of this 
equation. If the goal is mobility for people and goods, you 
cannot separate that from that planning. Whether it is through 
MPOs or whether it is done on a more intermodal basis at the 
State, or even at the local level, we need that performance-
based planning where we are looking at the outcomes.
    We have performance measures for how we get there, and 
there has to be a feedback part of that cycle where it is 
integrally tied to local land use; and that means things like 
more density in some places for transit-oriented development 
and explicitly saying that you will not be able to provide the 
kind of transportation access in other places that people may 
want. It is about choices.
    Mr. DeFazio. Would the Federal government do that with 
inducements or with penalties or with bonuses? Or maybe if you 
did that, would we grant more flexibility to the spending of 
funds among programs for a jurisdiction? How would we get 
there?
    Mr. Porcari. We would respectfully ask for the flexibility 
to begin with. With the performance standards, hold us to those 
performance standards; and perhaps above a formula allocation, 
there could be an additional distribution based on that 
performance.
    Mr. DeFazio. So, if a local jurisdiction or an MPO or a 
State has developed outcomes-based, multimodal approaches to 
resolve what we look at as our Federal objectives here in 
dealing with congestion and lowering the cost and pollution and 
all that, perhaps there would be, outside the regular formula, 
competitive money or additional money--or maybe even within the 
formula--that would give you the opportunity to break down some 
of the silos?
    Mr. Porcari. That would be one opportunity, Mr. Chairman.
    Beyond that, even with existing programs, with the New 
Starts transit program, for example, they get past the singular 
kind of gatekeeper focus.
    Mr. DeFazio. That is going away really quickly. Do you mean 
on the cost-effectiveness factor?
    Mr. Porcari. On the cost-effectiveness.
    Mr. DeFazio. Maybe it has been repealed by now. I have 
assurances from the Administration. It should go away soon.
    Mr. Porcari. That is exactly when we get to the larger 
goals.
    Mr. DeFazio. Other members of the panel?
    Yes, sir, Mr. Aggarwala.
    Mr. Aggarwala. I think--in terms of thinking about 
formulas, one of the things I think we should consider is that 
traditionally we measure demand or the need for mobility in 
miles traveled, whether it is vehicle miles traveled or 
passenger miles traveled. In fact, as the Secretary points out, 
if we are really doing a smart job, we are reducing that demand 
for movement without actually changing, as Dr. Staley suggests, 
the actual facilitation of mobility.
    I think that is a critical thing that should be considered, 
ideally within the formulas themselves, as well as on top.
    Mr. DeFazio. Trips avoided. Is that what you are talking 
about?
    Mr. Aggarwala. Or perhaps it is something as simple as 
percent GDP in a local economy or something like that, because 
if you can facilitate economic growth, population growth, 
quality of life with a lower demand for movement, you still 
almost by definition have high mobility; and that is really 
what we should be promoting.
    Mr. DeFazio. Excellent.
    Mr. Lovaas. I agree with that. I think we are at an 
historic point where we could see something happen with vehicle 
miles traveled that we saw happen a few decades ago with energy 
intensity in terms of our economic growth. We were able to 
decouple growth in energy use from economic growth, and people 
still got the same services that they required to make a living 
and to have a decent quality of, life, using a lot less energy.
    I think we are at the same kind of juncture with travel, 
where we can moderate travel demand, yet people are still able 
to thrive and economies are still able to thrive.
    Mr. DeFazio. Excellent.
    Dr. Staley.
    Mr. Staley. I am a little bit more of a skeptic on the land 
use and transportation connection. It actually speaks to, I 
think, a bigger issue I would like to put on the table.
    One is that while I do believe that there is an important 
transportation and land use connection, it varies in a much 
more complicated fashion than, I think, many of us think. Just 
the investment in roads, in and of itself, does not produce 
growth. I mean, we have got lots of examples that I use across 
the Nation about roads that have been built to nowhere that 
serve no function and that are really wasteful. So, again, that 
is speaking to the issue of performance.
    The other point is that a lot of these land use and 
transportation connections, this nexus, are really going to be 
local solutions because so much of our understanding how travel 
patterns change based on the availability of certain types of 
transportation will literally be determined at the neighborhood 
level; and there are ways you can support that.
    The larger question, I think, for me and the biggest reform 
that could set in motion a whole sea change in terms of the way 
the transportation and land use connection comes together, as 
well as moving toward a more sustainable transportation system, 
is completely moving to a different form of transportation 
finance, which is based on distance-based travel.
    Mr. DeFazio. Based on what?
    Mr. Staley. Distance-based travel. A mileage tax. This is 
actually an area where I think there is substantial agreement 
across the ideological spectrum, because what will really call 
for the users of transportation to face the true cost of their 
travel.
    I think we are automatically going to see the demand for 
different transportation modes as well as changes in land use 
immediately become apparent on the local level. We are going to 
see some changes, and Portland has led in some of that as well.
    I think it is important that a broad-based change like the 
change in the way we fund travel and in the way we fund that 
infrastructure investment will have these ripple effects, which 
are national in their impact. Granted, that is a long-term 
solution.
    Mr. DeFazio. I was going to say, if we cannot get there in 
this reauthorization, how do we begin to move in that 
direction? How do we begin to facilitate these changes in 
policy without that?
    Mr. Staley. Yes. I think this is the real point because I 
think this is the reauthorization process where we begin that 
movement. I am afraid, if we do not start that movement now, it 
is going to be decades before we do move in that direction. So 
there are some practical things that can be done at the Federal 
level--encouraging pilot projects, also encouraging States to 
cooperate--because we now know of the interoperability of these 
different road pricing networks. We know the solutions are 
there. We see them in Santiago, Chile, and we see them in 
Europe, but we need to see them applied and developed in the 
U.S.
    So there is an awful lot of strategic investment that can 
occur with Federal encouragement that will begin to overcome 
these obstacles, and that needs to happen now.
    Mr. DeFazio. Does anybody have a quick thought on that? My 
time is about up here.
    Mr. Lovaas. Just in terms of the revenue generated, there 
are two pieces to this equation. I agree with Sam about this 
idea of shifting to more use of the road pricing as a tool, but 
it is one in a basket of policies, and we should decide where 
the revenue goes. Mostly, we believe it should go to 
transportation alternatives so that you can get a double bang 
for the buck in terms of that policy, in terms of moderating 
travel demand, which we believe should be a national goal.
    Mr. DeFazio. Great. Thank you.
    Mr. Duncan.
    Mr. Duncan. Well, Mr. Chairman, since I gave an opening 
statement, I am going to yield my time for questions, at least 
at first, to my Members. So I will yield to Mr. Coble at this 
time.
    Mr. Coble. I thank the gentleman, Mr. Duncan.
    It is good to have you all with us. Many good ideas have 
been presented this morning, and I may be repeating them, but 
let me revisit them if I can.
    The gentleman from Maryland, many of the suggestions point 
to intermodal solutions for our transportation problems. How 
can we better connect our surface transportation options to 
other modes to ensure an efficient transportation system?
    Mr. Porcari. That is an excellent question.
    We tend to focus on moving people. Moving goods is an 
important part of what we do as well. We have a great advantage 
in Maryland in that we have an intermodal Department of 
Transportation at the State level where everything--aviation, 
ports, highway, transit--are all under one roof. It gives us an 
opportunity and an obligation to think intermodally.
    There is a kind of hierarchy, for example, on the goods 
movement side where we would want to keep the goods movement on 
water as long as possible, because it is cheapest and most 
environmentally efficient, then on rail and then on truck for 
the final part of it. We need to be thinking about that in 
terms of goods movement nationally.
    We also need, in moving people, to have less emphasis on 
the modes and more on the outcome. Again, I think performance 
measures in the goal, which is mobility, is one way we will get 
there.
    Mr. Coble. Thank you, sir.
    Let me go to the gentleman from the Rose City way out west. 
Mr. Hansen, because transit agencies oftentimes cannot cover 
their operating expenses from the fare box, it would follow 
that the more transit services that are afforded, the more a 
transit agency runs into red ink.
    Does this mean that we have to resign ourselves to an ever-
increasing Federal subsidy in order to increase the transit 
market share? I do not mean to sound like a pessimist as I am 
coming at you, but talk to me about that.
    Mr. Hansen. Thank you, Congressman Coble.
    The issue is that no transit system within the country 
operates their full cost off of the fare box.
    Mr. DeFazio. Excuse me. How about in the world? I am not 
aware of one anywhere in the world----
    Mr. Hansen. Certainly not in the world, not that I am aware 
of.
    Mr. DeFazio. --or in the United States. Thank you.
    Mr. Hansen. The issue, though, is that this is a public 
investment from which we are, in fact, receiving substantial 
benefit whether it be in air quality, whether it be in the 
mobility needs of our citizens, particularly of those who are 
unable to afford it and in terms of being able to address more 
effectively greenhouse gas emissions as well. So, to me, the 
issue is really that it is a very appropriate and necessary 
public investment.
    Now, at the same time, the more we can make our public 
transit systems deliver transportation needs, not just for that 
work trip, not just for the AM and PM peaks of Monday through 
Friday, but all day long, into the evenings and on Saturdays 
and Sundays, essentially what we are doing is filling more 
empty seats and making that more efficient.
    In fact, in the Portland region, over the last decade for 
which statistics are available, we have seen our ridership grow 
by 46 percent and yet our service hours, only by 16 percent. It 
is really a threefold more efficient operation of the services.
    I think that is something that we always need to be able to 
do within the Nation, but to be able to ever think that we are 
not going to have investments, to be able to keep operation 
going, let alone the capital investments, I think, is something 
that would be very shortsighted for this Nation.
    Mr. Coble. I thank you, sir.
    Mr. Chairman, I think I have time for one more question. 
Let me visit with my friend from New York.
    Some of us, perhaps many of us, on this Committee represent 
rural areas. You suggest that many of the policies that New 
York City has implemented could be used around the country to 
ensure sustainability in surface transportation.
    What applications would these policies have in rural areas?
    Mr. Aggarwala. Thank you, Congressman. That is a very 
interesting question.
    There is one thing that we have to think about. First of 
all, there are many things that I think the rural parts of the 
United States can learn from major cities because, while we are 
different, we are not completely different.
    It is important to note that most of the rural towns in the 
United States developed well before the automobile came into 
widespread use, so they started out as being walking towns at 
their origins. While it may not be that walking or cycling can 
get to quite the share of total trips in a rural community as 
it can in Manhattan, for example, I think the idea of promoting 
density, promoting clustering and using the car only when 
necessary is certainly a viable approach.
    Mr. Coble. I thank you, sir. I thank the gentleman from 
Tennessee. I will yield back to him to reclaim.
    Mr. DeFazio. Thanks.
    Just one point also on Howard's questioning:
    I live in the second city of Oregon, and we had a private 
bus system which the city had to take over because it was not 
making money. I do not think that is uncommon, is it? Aren't a 
lot of our now-public systems derived from formerly private 
systems?
    Mr. Hansen. Absolutely. Certainly, in the city of Portland 
as well, it was a company that went bankrupt in 1969. It was 
taken over by the public.
    Mr. DeFazio. All right. Thank you.
    We are going to go in the order of arrival from a list 
given to me by staff, and that would take us to Mr. Baird.
    Mr. Baird. I appreciate very much the input from the 
gentleman. It is good to see my friend from Oregon as well.
    The key that we are going to be debating in the next couple 
of days is the degree to which the infrastructure stimulates 
the economy, and that is part of the theme here. But in terms 
of the energy savings, as well, could you gentlemen offer your 
input?
    It seems to me there are two aspects to the infrastructure, 
to the economic stimulus: One, we create jobs by building 
things, but two, to the extent that we reduce our dependence on 
foreign oil, save money on transportation. I would welcome open 
comments on the synergy between those two.
    Mr. Porcari. If I may start, first, on the immediate 
stimulus part, every $1 billion of transportation investment is 
about 34,000 jobs. It clearly will, first, preserve and then 
add jobs as part of it.
    It is important to remember that transportation is an 
enabler; it is a means to an end. For our economic development 
goals, for sustainability or for any other policy goals, this 
is the way to get there. The choices we make really determine 
the balance in the transportation system; and I would argue the 
balance is different in different places--highway or transit, 
for example. Transportation can serve those goals. We just need 
to be explicit about them.
    Mr. Hansen. Congressman Baird, I would also add, each time 
we have somebody who is, in fact, taking public transit rather 
than somebody who is in his individual automobile, we are, in 
fact, addressing environmental goals. So, by the stimulus 
investing in those very services, to be able to invest in 
neighborhoods that, in fact, can become more walkable or more 
bikable, we are addressing long-term sustainability by making 
that the pollution that is coming from those individual auto 
uses be less, not to take away mobility needs, but in fact, to 
be able to, as you have heard from the whole panel, meet those 
mobility needs, but in a more environmentally sustainable 
fashion.
    Mr. Lovaas. Congressman, the transportation sector is 
responsible for the lion's share of our oil consumption at 11 
million barrels a day, and it is a sector that is 95 percent 
dependent on petroleum-derived products. Getting off of oil is 
not going to be addressed by dealing with pollution or with 
sources of energy in our electricity sector, which only uses 
about 3 percent of the oil we consume nationally. It is all 
about transportation.
    You heard that--fortunately, yesterday the new President 
announced that he is going to raise fuel economy standards more 
quickly than the previous administration would have. 
Performance standards that are technology neutral are the main 
ways that we are going to wean ourselves off of oil.
    It is such a monumental challenge that we need to 
complement that with other ways to moderate demand, and that 
includes a robust investment in public transportation 
alternatives. We need that as a complementary strategy. And 
that, I think, in addition to job creation, is a laudable 
objective for the investment of Federal dollars in 
transportation.
    Mr. Baird. Do we have figures indicating how much we could 
save if people took available transit, in other words, if 
people would just say, "Look, I am not going to drive to work. 
I am going to either car pool, or let's stick just with transit 
for now."
    How much could we save in terms of dollars in the economy, 
but also in terms of carbon output energy consumption?
    Mr. Lovaas. I do not know. Fred might know better than I 
do. As far as I know, that analysis has not been done, and I 
have actually been wondering that myself recently. If transit 
systems across the country were running at capacity--rail, bus, 
you name it, and if people were taking advantage of other 
alternatives such as biking and walking--how much oil could we 
potentially save?
    I am not sure that analysis has been done. I think it would 
be useful to do because it would make a contribution to 
reducing our oil dependence.
    Mr. Staley. There are also other trade-offs involved.
    The one thing is, if we would move people to transit. But 
on the other hand, in most cases that involves an increase in 
travel time; and there are other negative aspects of that that 
would also have to be factored in.
    I would like to speak specifically to the two points. One 
is that I think we need to be careful about how we use numbers 
like every $1 billion spent on transportation creates 35,000 
jobs. In fact, we are only going to see those impacts if those 
investments in transportation are making a meaningful impact on 
the transportation network's performance. It is not a matter of 
simply laying asphalt and expecting those jobs to be there.
    Now, in the short term, you might see a blip, but what 
these numbers do not really take into account is the extent to 
which those investments are, in fact, productive in improving 
the system performance.
    The other thing I think we need to keep in mind is that 
there will be a short-term cost, a higher cost, of trying to 
move us off of oil. Right now, oil is cheap compared to the 
availability of the alternatives, so we are talking about a 
long-term shift as opposed to the short-term cost. That still 
means that we are going to have to address those issues over 
the 5-to-10-to-15-year period in which we are going to wean us 
off of oil. I agree that the CAFE standards are, most likely, 
the most effective practical means for doing that.
    Mr. Baird. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    There was a study that APTA did, the staff reminds me--and 
it was referenced, I believe, in our briefing materials on mode 
shift--which talked about, with a 10 percent mode shift towards 
transit, we could save all of the oil we import from Saudi 
Arabia. Now, obviously, it is fragmentary and somewhat dated, 
but it would be worthwhile to ask for it. I am glad that has 
been suggested.
    I think we should ask to have that updated by the 
administration and have them make some estimates.
    With that, I would turn to Mr. Petri. He is not here at the 
moment. He stepped out. Okay.
    Next on the list will be Mr. Latta. We are going by the 
order of the names given to me by staff on either side. It is 
in order of appearance, so you are up.
    Mr. Latta. Thank you very much, Mr. Chairman, and thank you 
very much to our panelists for being here today.
    I would just like to follow up on what Mr. Coble brought up 
a little bit ago. I come from a kind of interesting district in 
northwest--north central Ohio. It is the number 1 agricultural 
district in the State, and it is also probably the number 1 
manufacturing district in the State of Ohio.
    If I am listening, especially when you are talking about 
land use planning and also getting into some other areas 
involved about where the dollars are going, my problem is this: 
I cannot have people walk to work. I cannot have people ride 
their bikes. When I go to a lot of the factories in my area, 
the first question I usually ask is: How far do your people 
have to come in from? It is not unusual for people to drive 
anywhere from 25 to 50 miles. I have got people from Michigan 
coming into Ohio. I have got people coming from Indiana into my 
area. So the idea of our having any mass transit is out. So, 
you know, I am listening a little bit, especially on the land 
use planning ideas.
    What do we do in our area? If we do not have our 
automobiles or our pickup trucks, we are unemployed.
    So I would just like to throw that out to you all because I 
know there are districts like that all over. In fact, one of 
the cities in my district outside the city of Toledo, right 
now, it is petitioning to get out of the, TARTA, the Toledo 
Area Rapid Transit Authority, because the ridership there, the 
study has been given that it would be cheaper for us in that 
area to give people a used car than to have the taxpayers pay 
for the system.
    So if I could just throw that out to you.
    Mr. Staley. Representative Latta, I know your area very 
well because I am in Ohio, and I have spent a lot of time up in 
that area. Actually, I think it is important because the point 
you are making is broader.
    There are a lot of urbanized areas in the U.S. that do not 
have the densities that either have been created through an 
urban growth boundary as in Portland or of a New York or a 
Chicago. Here, the mobility that is going to be most important 
to the economy as well as to life style is primarily through 
the automobile.
    That is one reason why the research that we have done at 
Reason Foundation is showing that, if we are looking at 
sustainable transportation or reducing oil dependence, then 
improving the gasoline mileage is, by far, the most important 
and has the most effective impact. Land use changes, all of the 
other alternatives pale in comparison to what those effects 
will be just from that alone. I have got a table in my 
testimony which breaks that out.
    So that is another reason that I think it is important. We 
need to recognize that and we have got to make sure, at the end 
of the day, that mobility is a central part of how we think 
about transportation policy.
    Even in Arlington, Virginia, only 20 percent of those who 
live in that very urbanized county are within walking distance 
of a Metro station. So we are talking about, of the 80 percent 
who might have access to a bus, most are using automobiles. 
That option still needs to be a central part of this 
discussion, I think.
    Mr. Aggarwala. I think, Congressman, your question is very 
well taken. It is one of the reasons that, I think, several of 
us have talked about the need for local flexibility for 
performance-based outcomes, because clearly what will work in a 
big city is not necessarily the only answer for a rural or a 
manufacturing area. But allowing localities--metropolitan 
areas, local planning associations--to set their priorities and 
to demonstrate that they are making the right decisions and are 
therefore working towards performance will ideally suit us all.
    Mr. Hansen. Congressman Latta, I would also add that public 
transportation is not the alternative for everyone. It is 
really to give people choices. Particularly as we look at this 
summer, when gasoline was over $4 a gallon, as for those 
individuals whom you referenced--and we certainly have them in 
our community as well--who have long driving trips to be able 
to get to a job, were paying disproportionately high costs to 
be able to have that transportation.
    What we have found when we, in fact, integrate that kind of 
broader approach in the Portland region is that we have been 
able to see a 7 percent reduction in the amount of what 
individuals spend on transportation. That is 7 percent that 
gets to go for housing or for other expenses.
    Now, it does mean that there are people who are traveling 
long distances because that is the life style they want, but it 
ultimately means that we need to give people more choices.
    Thank you.
    Mr. Latta. If I could just follow up really quickly, I 
guess my question, though: You are looking at Portland. Again, 
in my area, there are no cabs, there are no buses, there are no 
subways; it is your vehicle. If your vehicle breaks down, you 
are unemployed. So I guess one of my concerns is that, you 
know, we are talking about the local areas being out there with 
their own planning with what they are supposed to be doing in 
the future. My concern is that we have to think about all of 
these rural areas that do not have those abilities.
    One hundred sixty years ago, my relatives came down the 
Ohio River by barge, and went up by canal to Olmsted, and that 
is where they settled, and that is where they are, but there is 
just nothing up there.
    Mr. DeFazio. Thank you, Mr. Latta.
    Mr. Latta, my district is the 38th largest in land area in 
Congress. I understand your dilemma. There was something we had 
in the energy bill stripped out by the Senate that would have 
helped people capitalize like vans for people who live somewhat 
proximate to one another in dispersed rural areas so that they 
could, you know, car pool essentially.
    I mean, we have got to start thinking about how we serve 
rural areas, too, and how we can allow them to be more cost 
effective and more fuel efficient. Any ideas you have got, I am 
open to them.
    Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I can join others in 
appreciating your having this hearing.
    It seems to me like for some length of time now--and you 
have all confirmed that very much--that intermodal is something 
we have got to seriously consider, and we have probably done as 
well as we can do. Also, I heard you make, I thought, very 
potent remarks about the pollution needs and also about the 
fact that we are 95 percent dependent on oil for all of our 
transportation needs in our economy.
    Mr. Chairman, I will just say this, and it will sound like 
I am being self-serving, I suppose: In the Midwest--and there 
are the several States there--we have gotten heavily into 
alternatives. I also understand that in the heavily populated 
Northeast the homes, the factories and everything pretty much 
runs on fuel oil; there is a big need, a big consumption and a 
lot of pollution. But we cannot get the biodiesel or the soy 
diesel or the ethanol out there except by rail, and it has got 
to go through Chicago. There are big delays there which we hope 
someday we can do something about, and we certainly know about 
it.
    Yet we cannot deliver this alternative because of 
transportation. You have to get it either on a truck or on 
rail. It has been suggested that maybe a pipeline would be a 
good idea--$1 billion spent, 34,000 jobs. It cannot be 
exported. It will fulfill a need.
    I would like for you to comment about that. Is this just a 
pipe dream or is this something we ought to be putting some 
effort into? I would like to hear your expertise on that. Thank 
you.
    Mr. Lovaas. I am not certain about the pipeline proposal. I 
can say that the oil consumption in transportation is a product 
of three factors--the efficiency of our vehicles, how much we 
travel in those vehicles, but then what goes into the tank or, 
hopefully, increasingly, what goes into the battery.
    As such, we need to consider that third piece thoroughly. 
What are alternative liquid fuels that make sense? How do we 
make those more available? How do we promote the 
commercialization of plug-in hybrid technology as well? 
Basically, how do we fuel our transportation sector 
differently, setting aside demand?
    Of course, from NRDC's perspective, this is a matter not 
just of saving oil, which is in the national interest, but also 
of reducing carbon emissions, which is in the national 
interest. So we would want to make sure that, on a life cycle 
basis, whatever alternatives we are putting into the tank or 
into the battery help to address both of those goals, which we 
see as complementary.
    Mr. Boswell. I appreciate that.
    Anybody else? We do have, in fact, alternatives. We cannot 
get to the places that have a need. It would seem like 
transportation is the only solution that I know of, Mr. 
Chairman.
    I would hope that we might give that some thought. Well, I 
have talked to you; I know you have.
    Mr. Staley. I think that raises a really important question 
about the need for additional capacity and also about upgrading 
the capacity in commercial freight, both in multimodal as well 
as in rail. That is something that has been neglected over the 
years. I know looking at freight corridors has been important, 
but it is also important for handling bulk shipments. So all of 
that, I think, would be wrapped into that as well.
    The other thing to keep in mind is that one of the reasons 
we are facing this dilemma is that oil remains the most 
efficient as a source of energy for propelling vehicles. So 
what we are trying to do is move to another source, but the 
hurdle is trying to figure out what that alternative is and 
doing it in a cost-effective way. We are still at the infancy 
of really trying to understand what that is going to be at this 
point.
    Mr. Boswell. Thank you very much.
    I have just got a few seconds left here. I would just like 
to give a recommendation to all of us on this side of the panel 
and the panel, too: You might just take a moment and pick up 
Thomas Friedman's latest book, "Hot, Flat, and Crowded." Take a 
minute or a little bit of time to read it. It is riveting. I 
think it says a lot about where we are nationally and 
internationally, and I highly recommend it.
    Thank you.
    Mr. DeFazio. I thank the gentleman.
    Leonard, that is what I want people to do is to think 
outside the box and to think of all of the aspects of things 
that relate to transportation fuels, to fuel efficiency and to 
movement, and to start thinking about what are alternate 
solutions to the traditional way we have been doing it. So I 
appreciate your contribution there. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. I thank all of you 
for being here today.
    When I look at the population growth in America, I think it 
was 2005 that we crossed over the 300-million-person threshold. 
As I was reading about it, it took us 60 or 65 years to go from 
200 million to 300 million, and in the next 35 years, we are 
going to go from 300 million to 400 million. When you look at 
the charts, to show you where the growth is occurring, not 
everybody is moving to the West or to the South. It is still 
those corridors, the Northeast corridor being the example, the 
density just becomes even greater.
    When we are talking about transportation and land use, my 
view is that a big part of the solution is to encourage people 
to move out of the urban areas because, with technology today, 
they do not necessarily need to be in Washington, D.C., or in 
Baltimore or in New York. They can be out in places in rural 
America, but we still need that transportation link. If we are 
going to build a factory, that product still has to get to the 
East Coast.
    So one of the concerns I have is, if we continue to build 
our infrastructure up around the big cities rather than in 
places like Iowa where they have had manufacturing facilities, 
those plants are just going to move to the east coast, I 
believe, because there is going to be less cost for them. So we 
have got to continue to build that infrastructure.
    How do we encourage companies to put those jobs into the 
heartland, into the rural areas to make better use of our land 
there, and to decongest our major urban areas?
    I grew up about 30 miles from Cumberland, Maryland, and 
over the last 30 years, I have seen Cumberland, Maryland's 
population decline and its industry move out.
    So first, Mr. Porcari, How do we get those people to go 
back to Cumberland and to stop them all from moving to the 
Baltimore, Maryland, suburbs?
    Mr. Porcari. Actually, Cumberland is a great example. It 
was once the second largest city in Maryland, and it was built 
as a transportation hub to the Midwest.
    Again, I think, whether you are talking about the highway 
network or rail in that case--and before that, canals--
transportation is an enabler for the kind of growth that a 
region may want. It is a different solution in different 
places, but with the interstate network essentially finished on 
the goods movement side, I think one thing we need to do, as 
part of a larger solution and for some balance, is to make sure 
on the rail movement part of it, where the bulk goods movements 
are happening and where it is far more efficient, that we are 
paying attention to that.
    Actually, we have a national policy related to that that 
works with, not against, our highway system, and it essentially 
preserves capacity at our highway system. That would be one 
way.
    The key word here, I think, is "balance" overall. For each 
area, each jurisdiction, that balance is going to be a little 
bit different, and the kind of flexibility that we need in a 
transportation program at a national level would give us that 
balance.
    Mr. Shuster. Do all of you agree to disagree that part of 
the solution is to try to encourage people not to move into the 
urban areas, which is making the population more dense? That 
would help to solve some of the problem.
    Mr. Aggarwala. Well, I think one of the things that we have 
to think about, Congressman, is that density, itself, in fact, 
is part of the solution.
    So, in New York, you know, where we are looking at growing 
from our current 8-1/4 million people to over 9 million people 
by 2030 in a city that is not growing--you know, we do not have 
space for any new roads or things like that--we basically have 
to grow upwards in terms of density. The fact is, we will have 
a more efficient transportation system because, as Mr. Hansen 
pointed out, transit by its very nature, walkable cities by 
their very nature, are, in fact, more and more efficient by 
density. Now, that does not mean that there is no room for a 
future, in our view, of the rural or less densely populated 
parts of the countries.
    Again, I think what we keep having to go back to is a sense 
of a performance-based standard for how we think about this. 
Factories and other things like that make a tremendous amount 
of sense in lower-density areas where they might be objected to 
by some of the neighborhoods that I work for.
    Mr. Hansen. From the Oregon standpoint, I might add, 
clearly one of the things that is most important to the eastern 
part of our State, where there is lots of wheat grown and other 
commodities, is the movement of those commodities efficiently 
and effectively through our urban areas, which is really where 
they are being shipped out either around the country or around 
the world. It is what will keep those rural areas economically 
viable.
    So it does seem to me that the connection and the balance 
that the Secretary referred to and to be able to understand how 
that has to be connected is, in fact, the best strategy we can 
pursue.
    Mr. Shuster. Thank you. I see my time has expired.
    I want to say to the Chairman that I appreciate the 
efficiency and the fairness of your hearing today. So I will 
yield. I have no time left. Thank you.
    Mr. DeFazio. Thanks.
    Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thanks to our 
panelists, especially to Mr. Aggarwala from my home State of 
New York. Welcome.
    My question first is to Mr. Lovaas. I was struck by the 
testimony of your detailing the effect of stormwater runoff 
from roads on aquatic environments. You say statistics that are 
staggering. For example, when only 10 percent of a watershed is 
covered with such surfaces, the rivers and streams and that 
watershed become seriously degraded. Furthermore, you cite a 
study that found that an acre of parking lot yields 16 times as 
much runoff as an acre of open meadow.
    Another study found that a storm producing 1 inch of rain 
will lead to 55,000 gallons of polluted stormwater runoff for 
every mile of highway that that rain falls on. Most 
disturbingly, a study by USGS found that concentrations of 
pollution in U.S. watersheds had reached a low point in the 
1970s and 1980s due to improvement in wastewater technology, 
but by the 1990s, this trend had turned around due to an 
increase in miles traveled by automobiles and trucks, due to 
tire wear, crank case oil, roadway wear, and car soot and 
exhaust.
    As someone who represents not only the Hudson River Valley 
but also substantial portions of New York City's water supply, 
these statistics alarm me. So my question is whether the 
funding levels for water infrastructure in the House recovery 
package that we are slated to be debating and voting on this 
week will be significant enough to help reverse that decline. 
Or do we need an even larger effort on water infrastructure?
    Mr. Lovaas. Thank you, Mr. Congressman.
    The funding that is in the package currently is outstripped 
by the need, and we prefer the original level that Chairman 
Oberstar proposed in December, which is twice the level that is 
currently in the bill.
    This is a huge additional fact of our transportation 
sector, and there are basically two ways of addressing it. One 
is rather counterintuitive. One is actually more density, 
particularly around watersheds so that you have a lower 
ecological footprint or pavement footprint per capita, so 
interestingly, by clustering development, you actually end up 
with less runoff.
    Then the other is to actually design projects, whether they 
be highway projects or transit projects or bicycle or 
pedestrian projects, so that you reduce how much runoff there 
is into our water bodies. That second piece is especially where 
we can use a lot more money.
    As a matter of fact, there is an opportunity in the 
reauthorization of the transportation law. The last time 
around, the Senate debated the idea of a stormwater pollution 
control set-aside in the STP program of 1 percent. That is the 
kind of innovative program that we would favor revisiting in 
this next reauthorization in order to get a handle on our 
increasingly worsening stormwater pollution problem.
    Mr. Hall. Thank you.
    Mr. Aggarwala, would you like to add something to that?
    Certainly. Thank you, Congressman. I think we certainly see 
a tremendously greater need for water infrastructure investment 
than is currently countenanced. Whether it is appropriate in 
this stimulus or as part of a broader thinking on 
infrastructure, I am not 100 percent sure, but I think no 
question we need to invest as a Nation in our water 
infrastructure which has allowed us to make dramatic 
improvements over the past 30 years, but unlike the early years 
of the Clean Water Act, today the Federal Government has more 
or less distanced itself from the investments in water 
infrastructure that are imposed on localities and on States, 
and I think it is time to reconsider that.
    As Mr. Lovaas pointed out, designing transportation 
infrastructure is a key component of that. We are working in 
New York to think about how we redesign our streets in ways 
that will capture stormwater as it runs off. We have put in a 
zoning requirement on the local level to require that all new 
parking lots in New York City actually have green swales and 
trees, to ensure that that kind of thing is designed in, and 
whether there is a role for a Federal set-aside or for Federal 
standards, I think those things need to be considered
    Mr. Hall. Thank you.
    I only have a little bit of time. I wanted to ask again to 
Mr. Lovaas, in your testimony you cite a statistic showing that 
public transportation has only just now returned to the level 
of boardings of 50 years ago, and statistics show that in the 
U.S., for every 1 transit trip, there are 44.5 auto trips. By 
contrast, Canada, Great Britain and Germany have a different 
ratio, much less lopsided, 7.6:1, 4.6:1 and 3.1:1 respectively, 
many fewer auto trips per transit trip.
    How can we narrow that gap down and actually move beyond 
the number of boardings we have now? Is it simply more money, 
or do we need to fundamentally change land use planning?
    Mr. Lovaas. Well, we need to do both. We need greater 
investment, and we need blueprints for our regions especially 
that actually maximize how much use people make of transit, and 
we need road pricing. We need to put a price on the use of 
roads to encourage people to use alternatives and also to 
generate revenue that can be invested in those alternatives. 
This is what London did, and a lot of European countries are 
actually setting targets for a better mode split, and that is 
something I think we should consider as a Nation in addition to 
this idea of moderating travel demand in order to reduce VMT, 
or vehicle miles traveled, intensity of our economy as we have 
done with reducing energy intensity over time
    Mr. Hall. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing. I think it is an 
interesting subject.
    And this is not really a question, but just a comment on 
the last question. My colleague from New York mentioned about 
the stormwater runoff and some of the problems that we have. He 
and I have talked a lot about Great Lakes issues and various 
things, and that is something I think, unfortunately, in the 
Great Lakes States, in our basin there, we have not taken 
enough into consideration in our planning over the last number 
of decades about some of the various transportation modes as we 
have built them and all the stormwater runoff that has gone 
into the Great Lakes and caused us pollution, et cetera. So it 
is a critical component, I think, of urban planning and rural 
planning or what have you, particularly when you are in one-
fifth of the fresh water of the entire planet, and some lessons 
learned, I suppose, on that
    But my question is in regards--and a couple of other 
Members have already talked about this a bit. But in regards to 
mass transit, my district in Michigan has a suburb--some of the 
suburbs of Detroit and then run up to the tip of the thumb, so 
I have what used to be the explosive growth suburbs--now we 
have no growth going on with the economy--but also a lot of 
rural area. And I think we are the largest metropolitan--I have 
heard this anyway--the largest metropolitan area in the Nation 
that does not have a mass transit system.
    And perhaps that is, again, some of our own problem because 
of the automobile culture that we have there and everybody 
wanting to have their own car and not really utilizing mass 
transit, but it has had an impact, and we are trying to address 
that. However, you know, when people see large diesel buses 
going up and down the main arteries with just a handful of 
passengers on them, it is difficult to talk to people about how 
important it is to have mass transit. It looks as though it is 
almost more polluting with some of these large diesel buses 
that are going than even individual automobiles, et cetera.
    I guess I am wondering what--I am not sure who I am 
addressing this question to, perhaps the secretary from 
Maryland, about what your experience has been in some areas 
about getting people to support mass transit, or do you have 
any suggestions on an area like the Detroit metropolitan area, 
not having any mass transit other than sort of a secondary bus 
system, of how we might access public support and public 
dollars as well to actually incorporate something in an area 
that has really already been developed?
    Mr. Porcari. It is a very good question. In Maryland, we 
have a little bit of everything. We operate one of the largest 
transit systems in the country in the Baltimore metro area. But 
on the Eastern Shore in the more rural areas of the State, what 
has been successful for us as a transit strategy has been very 
much an employment-linked one, where some of the major 
employers we have worked with directly through our local 
transit partners, with partial State and local funding, where 
if you don't have a car, you can't have a job unless you have 
that rural transit link. And these services are very much 
directly linked to the major employers, and so it has been a 
critical part of the economic development strategy.
    It also tends to build the service over time, and we have 
encouraged counties to work together on regional systems, which 
we have in the lower Eastern Shore, for example. Three counties 
combined their systems into one, again working from the major 
poultry and other employers in the rural areas. That has been a 
very successful strategy.
    Mrs. Miller. Thank you.
    Mr. Hansen. I might add that to be able to provide not just 
the transport, not just the physical movement, to be able to 
provide people information about how they, in fact, can access 
that, when is the next vehicle arriving, is it the real-time or 
is it the scheduled time, the other elements of things that 
really make that trip be able to be used by individuals, 
particularly as we are so time-sensitive, is important.
    Last thing I might stress is as we see the population 
growing older, the rural needs are as great, if not greater, 
than in urban areas to be able to provide elderly and disabled 
access to essential services within their communities. And the 
need to be able to have that be in something other than their 
own automobile is a growing need, as I said, both in rural and 
in urban, maybe even more significantly within rural areas.
    Mrs. Miller. Yes. I appreciate that.
    I just have 30 seconds left, so maybe I only have time for 
a comment here, but I wanted to bring up something here called 
carbon fiber, since you are all involved in the transportation 
industry. And, you know, with technology happening in every 
industry, I do think the transportation industry has been a bit 
behind on utilizing new technology in construction and 
reconstruction of our Nation's highways and our States' 
highways.
    And if you look at some of the various technologies that 
are available on the market now, some of these composites--
again, we see this in the automotive industry where pretty soon 
you are going to have a plastic car practically. If you look at 
some of these various components that can be utilized in 
building our Nation's infrastructure, carbon fiber rerods, 
which are much lighter, much stronger, the sustainability, the 
lifetime of these; even composites for an entire construction, 
reconstruction of a bridge, some of these things that are 
available now--I know I am out of time here, but I just ask you 
to really look at that, because I think that is going to change 
the face of what is happening. Particularly as we get into our 
reauthorization of our transportation bill here, we are going 
to be looking at a lot of new technologies in the construction 
of our transportation grid.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Anybody have a really quick closing response 
to that?
    Okay. We will move on. Mr. Michaud would have been next. He 
had to step out. So we go to Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Like many of my colleagues here, I represent a large rural 
district, you know, 1,100 square miles, larger than 
Connecticut, biggest city is about 32,000 people, that sort of 
thing, so we face the very same issues of transport in the 
rural area.
    A couple of questions. First of all, Mr. Lovaas, what is 
the future, for example, for CNG, in your opinion?
    Mr. Lovaas. I am not certain what the future of CNG is, 
Congressman. Our whole approach to fuels and alternative energy 
sources is technology neutral and fuel neutral and what kinds 
of performance standards that help to push us where we need to 
go.
    Natural gas, whether in CNG or other forms, is likely to 
play a role in the transportation sector. I am not sure how 
big. One of the challenges with it is, of course, that it is a 
gas, and we have a tremendous retail delivery system for liquid 
fuels with 170,000 stations across the country which deliver, 
for the most part, gasoline. Very few of them deliver high-
blend ethanol alternatives, which I know was discussed earlier.
    So liquid fuels are likely, because of the infrastructure 
chicken-and-egg question, to have a leg up on alternatives in 
gaseous form, and that also is true because onboard storage of 
liquid fuel is less of a challenge, and it is less expensive 
than with gaseous forms of energy. So I am not sure how big a 
role it will play. I do know that it faces more challenges than 
liquid fuel alternatives.
    Mr. Carney. So many of the cities' bus systems around the 
country who do use CNG, what kind of investments would they 
have to make in order to----
    Mr. Lovaas. Well, that is actually, I think, a different 
matter, because what I was talking about is a fleet of light-
duty vehicles; but if you are talking about public 
transportation, if you are talking about buses, then you can 
have a centralized station where you actually can deliver the 
energy, and you can actually design the buses so that you are 
able to store as much as you need on board. So I think there is 
less of a challenge with shifting to CNG with our mass transit 
buses. Fred might know better, but that would be my take on it.
    Mr. Carney. Mr. Hansen.
    Mr. Hansen. All I would do is just echo the idea if you 
have a centralized fueling operation, which most transit 
systems do, you can. Most CNG has been utilized by transit 
systems as a way to be able to address conventional pollutants, 
not necessarily the challenges of greenhouse gas. It does seem 
to me that ultimately we are going to have see the battery and 
electricity as being the alternative that is really the future 
investment that is going to be very critical.
    Mr. Carney. I understand. Now, I brought that up listening 
to Congresswoman Miller's discussion of the partially filled 
buses that are diesel. So we do have alternatives to that.
    But the question I did have, is light rail a solution for 
districts like mine for transportation, or is it just getting 
folks from home to the job?
    Mr. Porcari.
    Mr. Porcari. Light rail can be a very effective solution, 
and we are in the middle of three major new starts projects in 
the planning process right now. We are in the midst of making 
the decision between bus rapid transit and light rail. I point 
out one of the driving forces in the decisionmaking process for 
us is long-term capacity, not the day it opens, but you can 
make a reasonable assumption that that system will be there 100 
years from now. We need that kind of long-term capacity.
    The other great advantage of light rail, in my opinion, is 
when you are linking together land use planning and 
transportation, and you are asking for multimillion-dollar 
investments by the private sector in transit-oriented 
development, you are much more likely to get it in a fixed rail 
system than you will with bus rapid transit, and that is a key 
decision point for us.
    Mr. Hansen. I would also add, we have been one of the 
leaders certainly in light rail. Light rail works exceedingly 
well when you are looking at high capacity over long corridors. 
But other systems work better when you are using feeder systems 
or major arterials, whether it is a bus rapid transit or high-
capacity frequent service that we oftentimes use.
    I think the answer is--I don't mean to be too quippish 
here, but it is not a silver bullet; it is more like silver 
buckshot. You have to find a series of different answers 
depending upon the nature of the community which you serve and 
such.
    My guess is the more rural areas will not work as well, but 
commuter rail may, in fact, be an element. Certainly high-
capacity bus transit may as well
    Mr. Carney. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    I am very supportive of transit. In the studies we have 
done at home in trying to increase ridership, it seems like 
everybody, you know, believes in transit, but they want their 
neighbor to ride it.
    I am not going to make everybody raise hands here, but I 
saw that the vast majority of the audience here, in an area 
that works really pretty conducive to public transit, again out 
of this group there is probably not much ridership.
    It seems like the thing that really determines who rides 
and who doesn't is the availability of parking. You know, if 
you have got good parking, and it is easy to get there and 
park--it is very difficult to peel people out of their cars.
    On the other hand, I agree with you, Mr. Hansen. Single 
moms, the elderly, keeping them independent versus 
institutionalized, it has got a lot of other reasons that we 
need to support, but I appreciate somebody threw out the thing 
about the going to jobs, you know, things like that. That is 
great. So that is something that we need to do a better job of.
    Dr. Staley, you mentioned that one of the big deals is 
cutting consumption as far as the fuel usage, CAFE standards 
and things like that. We have been visiting with some of our 
truckers, and one of their frustrations is a little bit--there 
are some things such as V-shaping the back of trucks that would 
improve wind resistance so that you get increased mileage; the 
technology of the units that instead of having to make your 
truck idle, you know, when you are sleeping and things, you go 
to the others. One of the problems that they are facing, 
though, is that if they put that falsetto on the back, that it 
increases the length of the truck a foot, and then they don't 
have as much, you know, truck space, and this is all a dollars-
and-cents deal. The same is true with maybe increasing 3-, 4-, 
500 pounds on the unit that allows them to shut down their 
truck and not burn as much energy. Again, that decreases their 
load capacity.
    Do you have any comment about things like that? I mean, is 
that something that you would be in favor of maybe working with 
in the sense of pushing some of those things, or can you-all 
comment on that as far as a mechanism to increase fuel 
efficiency, but, again, you know, kind of working at a 
commonsense approach?
    Mr. Staley. I think the solutions for commercial truck 
traffic are going to be different, and we have been talking 
mainly here about passenger light rail and automobiles. And, 
Congressman, I think raising that point is really critical, and 
I think it is also important to recognize that commercial truck 
traffic is really operating on a completely different set of 
constraints than passengers are, particularly when you look at 
commercial truck traffic in terms of the segmentation within 
the industry itself where you have got a lot of independent 
contractors who are really operating on very, very thin margins 
and can't spread out these costs that you find with larger 
trucking companies.
    And so I think it is really important to start looking at 
what those solutions are, and we might find that there are some 
interesting tradeoffs, but allowing for longer length and 
heavier trucks may allow us to optimize certain other aspects 
of commercial truck traffic that will allow us to meet some of 
these goals.
    Unfortunately, I don't have any specific recommendations, 
but they definitely need to be in the mix. That is really 
something we have been hearing a lot more about as we have been 
talking with the trucking industry about how we try and address 
that.
    Mr. Hansen. It does seem to me that the issue you are 
really asking is can technology make us more fuel-efficient, 
less polluting, and less carbon-intensive, and the answer is 
yes. In the transit world, a typical transit bus, 285 
horsepower, about 45 of those horsepower are used to power 
mechanical things on the bus. If, in fact, we are able to 
electrify those demands, that so-called parasitic load, we are 
able to increase fuel efficiency for those vehicles. That type 
of technology is now being available for retrofits on existing 
buses.
    Those sorts of things and many, many more ought to be able 
to be used to make sure our systems are as efficient as 
possible, knowing that in the long run that won't be enough to 
be able to address global climate change or other things, but 
we need to be doing it.
    Mr. Lovaas. I was just going to say that the 2007 energy 
bill does actually require that the National Academy of 
Sciences study heavy truck fuel economy and then shortly 
thereafter that the U.S. DOT establish standards for the first 
time ever for heavy truck fuel economy. So that rulemaking and 
that NAS study are certainly worth keeping an eye on, and I am 
sure the industry is going to be deeply involved in shaping 
both of those.
    Mr. Boozman. Thank you, Mr. Chairman. I hope that maybe we 
can work on some of those things that do seem like fairly 
commonsense approaches, again not dramatically increasing rates 
and things like that, but if you have a tradeoff of a tiny bit 
of weight increase for significant fuel reduction, it does seem 
like it would make sense.
    Mr. DeFazio. I thank the gentleman.
    The second panel will have an opportunity to delve into 
some of those issues, both technological in terms of increasing 
efficiency and also some suggestions which we can discuss 
regarding operations. So, if the gentleman hangs around for 
that, that will be great.
    Mr. Ortiz, the newest Member of the Committee, although 
certainly not--shall we say, he is a veteran of Congress, but a 
new Member of the Committee. So Mr. Ortiz.
    Mr. Ortiz. It is nice to become young again and become a 
freshman.
    You know, I represent a district way in south Texas, which 
is Corpus Christi by the Gulf of Mexico, and the testimony I 
hear today is that we have put a lot of money in the bigger 
cities 30, 40 years ago, and that infrastructure has become 
old, and you need to fix that up, bring it up to standard, 
whether it is metro or whether it is rail or whether it is 
shipping.
    I come from an area that has never been able to benefit 
from any of this because we just opened up a freeway to south 
Texas about 5 years ago. My district, I represent two deepwater 
seaports, which is Brownsville and Corpus Christi, and four 
minor seaports. The area 15, 20 years ago was maybe 300,000. 
South Texas now has about 1.5 million people, and within the 
next 8 to 10 years we are going to have 3- to 4 million people 
in two, three counties, not counting the population from 
Mexico, which we trade because my district borders Mexico.
    I was just wondering, you know, we need to put both money 
in the infrastructure that has become old and needs to be 
repaired, but we also need to take care of communities and 
cities and counties that have never had this type of 
infrastructure. And when I talk about seaports, the silt, stuff 
that needs to be cleaned up, we are now beginning to lose ships 
from coming in because it is not deep enough, the channels. So 
what do they do? They go to other ports in Mexico or someplace 
else. And now we are beginning to see a lot of trade coming 
from China utilizing Mexico because it is cheaper and because 
the west coast is becoming very congested.
    We talk about land rail, and I was just wondering what kind 
of formula should we apply in trying to be fair not only to the 
areas that have never been able to benefit from some of these 
projects, but to those areas as well that are growing old and 
they need to bring up the standard. Maybe some of you could 
touch on that a little bit.
    Thank you, Mr. Chairman.
    Mr. Porcari. Congressman, if I can start, we share some of 
the same port issues. For example, in the Port of Baltimore 
with silting, this combination of waterborne goods movement, 
rail, and highway and interrelationship between them is an 
important balancing act in the transportation system.
    I think in the interest of fairness, since the needs are so 
diverse around the country in different areas, if it is part of 
a larger plan--and again, there are performance measures, 
whether you are moving goods or people--I think the solution is 
different in every part of the country, and that kind of 
flexibility, which typically you don't have now because you are 
talking about the Water Resources Development Act for dredging 
needs, you are talking about a surface transportation program 
that has a lot of siloed programs, doesn't really give us the 
flexibility for those local solutions.
    Your two seaports are major employers. They are a major 
part of the economy in that sense, and I would think as part of 
a larger economic development plan for the region they are 
probably a pretty big part of the emphasis. It would be 
interesting to see if your transportation plans can reflect 
that through how the funding is applied. My guess is it is 
probably difficult to do that.
    Mr. Hansen. I might add just very briefly, and as the 
Chairman noted in the very beginning, we need to be able to 
look across all transportation modes and really evaluate what 
is the most cost-effective, what is the most efficient way to 
be able to move goods and people into different settings and 
then make the investments in that.
    It seems to me that the issue around the ability to be able 
to move by ship or by rail, we need to be able to see those as 
part of a national interest for those places where that is most 
efficient and then other systems in other places. And I think 
that will produce the quality of investment in older areas 
needing refurbishment, as well as in new areas that have not 
had that investment at all.
    Mr. Ortiz. Let me just make one short statement. The 
problem with rail is, since we trade with Mexico, to move a 
rail car 10 miles will cost you $350, but you can move it to 
Chicago for $150, and this is one of the reasons why we can't 
be competitive. And I know this is not the railroad Committee, 
Mr. Chairman, but I thought I would just bring that out.
    Thank you so much. Thank you.
    Mr. DeFazio. I thank the gentleman.
    I turn now to Mr. Duncan.
    Mr. Duncan. Mr. Chairman, let me just say this: I don't 
want to ask any questions, but the Republicans are going to 
have to leave here in just a few minutes because we are 
supposed to meet with the new President. But I do wish that the 
panel members, if you have any thoughts in these regards, there 
are two things that really concern me. And I mentioned both of 
them in my opening statement when I mentioned that two-thirds 
of the counties in the U.S. Are losing population, and there 
are some extremists, I suppose, that wish we could put 
everybody into 20 or 25 urban centers and turn the whole rest 
of the country into some type of protected wilderness. But 
really, I think when you force people into urban areas, you 
create congestion, you increase crime, you create traffic 
problems, housing problems, cost of housing goes up. So I think 
we should be doing things that give people incentive to move 
back to or stay in the small towns and rural areas and spread 
people out a little bit.
    And, Dr. Staley, I support, I think, most of the things 
that I have seen from the Reason Foundation, but I do have a 
little concern that if you go to the vehicle miles traveled 
type of financing, that you would put the final nail in the 
coffin of some of these small towns and rural areas because 
most of those people are lower-income people, and most of them 
have to drive further distances to go to work.
    And while I mentioned that my district is 80 percent urban/
suburban, I do represent about 20 percent rural areas, and 
whether I represent them or not, I have a great concern about 
the small towns and the rural areas. And I wish you would tell 
us how we solve that dilemma.
    And then the other thing I mentioned was the fact that 
these projects, because we have gone so far overboard on some 
of these environmental rules and regulations and red tape will 
tell you, I want to do everything we can for the environment, 
but when you are making these projects cost three times as much 
and take three times as long to get done, when most of the 
people in this Committee, I think, want to see these projects 
get done, and especially now we are talking about needing to 
spend some of this stimulus money in a faster way than ever 
before, we are not going to be able to unless we have a little 
balance and common sense on some of these environmental rules 
and regulations and speed some of those approvals up that in 
the past have taken so long.
    So I am concerned about those things, and I will be 
reviewing the record after this hearing. I am going to leave 
now, but if any of you will submit some comments or some 
solutions to those problems, I would appreciate it very much. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    We would now turn to Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman, for the opportunity 
to speak.
    I represent a seven-county district in southern Michigan. 
It is the I-94 corridor from the Ann Arbor city line west to my 
hometown of Battle Creek; also the I-69 corridor. Obviously our 
State and our region is wracked by unemployment. The latest 
State figure was 10.6 percent unemployment. Yesterday I learned 
that GM will be cutting a shift at one of its assembly plants 
along I-69, eliminating 1,200 jobs.
    I also want to add that the district includes both long and 
short rail freight transportation. There are two Amtrak lines. 
The Wolverine line, which runs along the Detroit-Chicago 
corridor, and the Blue Water line from Port Huron to 
essentially Chicago both run through my district.
    Communities in my district are very interested in 
intermodal transportation. Some are further along than others, 
but they are looking at this as a way to boost their local 
economies, position them for long-term economic growth, and, 
frankly, create jobs as well.
    So my questions have to do with how should we position this 
surface transportation bill within the context of a couple 
other things. One is, could you talk about the sort of short-
term and long-term cost-effectiveness of linking our 
communities with commuter rail, high-speed rail? I understand 
this isn't the railroad Subcommittee, but I think it is germane 
here. Talk about sort of the economics of linking our 
communities together.
    And as an aside, there is a project that is going to start 
soon between Detroit and Ann Arbor that will also link airports 
in a high-speed commuter rail corridor. There is another north-
south line as well. I would like to see the Detroit-Chicago 
corridor really become a functioning high-speed-rail intercity 
passenger line.
    So I want you to talk about the short-term and long-term 
economics, including the economic impact for those communities 
particularly where there are stops, and these are--the largest 
city in my district is Battle Creek, 53,000 people. These are 
some small, urban core communities that are hurting.
    The second is--and Mr. Chairman, I know this is something 
you are interested in--is the "Buy American" provision. In my 
State, we certainly have the capacity to build some of these 
things, and we certainly have a workforce that is ready to 
build some of these things. So there is also that sort of 
economic impact.
    I wonder if you could talk about those two things in terms 
of how we position this bill. Thank you.
    Mr. Hansen. Maybe just a few quick comments, and I know 
others will want to add.
    I think that we, as a Nation, must understand that 
intercity connections are equally as important to the 
intracity, and certainly although the intracity is the area 
that I focused on, it is absolutely critical to be able to make 
those kinds of connections, whether it be commuter rail, 
whether it be heavy rail connections.
    Our citizens throughout this country, I believe, want 
choices in how they can get around, and they want that for the 
longer trip as well as the shorter trip. They want that to be 
able to have for their convenience. They want to be able to 
save money. They want to be able to have it as a way to spend 
more time with families and other things, and I think those 
investments are absolutely critical, and I think we can, in 
fact, see those investments.
    Number two is the ability to be able to have jobs created 
not just in the construction of the line, but also in the 
vehicles. Certainly something that Chairman DeFazio has been a 
leader on in terms of modern streetcar we ought to be able to 
apply to all different modes of transport, and how do we really 
make those be American jobs.
    Thank you.
    Mr. Aggarwala. I think, Congressman, your idea of using 
high-speed rail, particularly to help the smaller and medium-
size cities, is very well taken. I think if you look in the 
Northeast or Europe or Asia, that has been one of the things 
that has disproportionately shown up; that if you look at the 
Northeast corridor, for example, as a share of its overall 
intercity transportation, Providence, Rhode Island, gets much 
more out of the north end electrification of the Northeast 
corridor than Boston does because you have hourly and half-
hourly flights from New York to Boston, but you don't have 
hourly and half-hourly flights from New York to Providence, but 
they get the benefit of hourly and half-hourly train service, 
and I think the same thing happens.
    But one thing I would point out, hearkening to my 
background in rail policy rather than urban sustainability, is 
that we sometimes misapply our focus to only super-high-speed 
rail, whereas thinking about the extent to which incremental 
improvement can often be the way not only to be most cost-
effective, but to generate that usage base that builds for the 
future.
    Mr. Staley. I think first with skepticism at high-speed 
rail mainly because--well, although I will say this: That among 
the rail alternatives, what we were able to see is that when we 
run the estimates and the forecasts of high-speed rail, 
intercity connections can generate a higher cost recovery at 
the farebox than any other rail alternatives.
    However, in terms of economic development, I think there is 
an awful lot of skepticism we need on this. I have looked 
extensively at the economics and development around many of the 
Amtrak stations and the Northeast corridor, and it really is 
underwhelming. And when I have looked at high-speed rail 
economic impact studies, specifically working on a team in Ohio 
and the Midwest rail corridor, what we found is the impacts are 
marginal at best.
    Maybe you might generate enough volume to create a new 
office building, but nothing like extensive development. It is 
more important to think about the high-speed rail, in my view, 
as a component of the transportation system and providing, in 
this particular case, a Detroit-Chicago alternative, which is 
really a competitive substitute to a short-haul airline.
    Mr. Schauer. Thank you.
    Mr. DeFazio. I thank the gentleman.
    The gentleman's questions go back to my opening remarks. 
Try and break down, look at the modes of travel, look at the 
least-cost solutions, and I think there are areas, particularly 
if you look at the European experience with high-speed rail, 
which is more dependable than Amtrak, and that is a big factor 
if you have got a job you have got to be at. So if we can have 
a dependable high-speed rail system, you might find different 
patterns of development.
    Mr. Staley. Actually that is a very good point. In fact, 
one of the communities we are looking at was adamantly opposed 
to any kind of rail because of their Amtrak experience. That is 
why when we did this analysis in Ohio, we were careful to look 
at the Downeaster, we were careful to look at the Hiawatha 
Line, which had very high dependability, also had really high 
ridership, too. So we are really trying to take a look at the 
best in the Amtrak system.
    Mr. DeFazio. Thank you.
    With that, Mr. Dent. Hopefully I did not violate the order 
here.
    Mr. Dent. Thank you, Mr. Chairman.
    Secretary Porcari, in your written testimony you mentioned 
a triple bottom-line approach. Could you kind of expand on that 
concept further?
    Mr. Porcari. Yes, I would be happy to.
    When AASHTO has been looking at how transportation system 
fits into a larger strategy, it is in three ways, and that is 
really where the triple bottom-line comes from. It is an 
enabler of economic growth. It is certainly a component of 
quality of life; that is, the choices the transportation system 
provides for people to get to and from work, school and other 
things.
    And the third part of it--it does get overlooked, but is 
very important--is transportation is an opportunity to improve 
the environment, whether it is through some of the things that 
have already been mentioned, different vehicle technologies, 
better fuel mileage, but also in a more literal sense, some of 
the mitigation work that is done with highways, it could be 
very directly tied to--and in Maryland, for example, Chesapeake 
Bay restoration goals where we used our mitigation projects--
and you have an example of it here--to literally recreate 
wetlands, remove an illegal landfill, and directly impact water 
quality in a positive way.
    The triple bottom line is the recognition that if we do 
this right, we can do all three of those things.
    Mr. Dent. Thank you.
    I just want to follow up. What policies do you think that 
would help jurisdictions support robust economic growth, and 
does limiting transportation options help?
    Mr. Porcari. Rather than limiting transportation options, 
if you have--for a specific community, if it is part of a local 
planning process, for example, if the transportation plan 
really has some balance in it and looks at the different 
approaches, and there is a consensus built as to what mix of--
and it almost always is a mix--of highway usage, of transit and 
other modes, that is really how it becomes the kind of enabler 
for economic development and long-term growth that you are 
looking for.
    Mr. Dent. Thank you.
    And to Mr. Hansen, your testimony says that transit saves 
about 37 million metric tons of carbon emissions per year. That 
sounds like a very substantial number, but can you put into 
some kind of context for the Committee what percentage of the 
total annual carbon emissions does that figure represent?
    Mr. Hansen. I would be guessing at it. I would rather get 
it back to you for the record. It is overall--in terms of 
overall carbon emissions from the Nation as a whole, it is a 
relatively smaller amount from the transportation sector, but 
it is the most ability for us to make the kind of investments 
to be able to move more and more people to that public transit 
and thereby do have significant reductions. But I would be 
happy to get that for the record.
    Mr. Dent. Thank you. I would like to see that.
    Mr. Chairman, I yield back my time.
    Mr. DeFazio. I thank the gentleman.
    With that we turn to Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Secretary Porcari, I want to share something with you. I 
was sort of involved with the light rail in New Jersey. It is 
called the Bergen-Hudson light rail. And I know you mentioned 
before that you are trying to decide whether to go with light 
rail or bus lanes. You mentioned that in your comments before.
    I can tell you the light rail is much better. Of course, I 
come from a very congested area. Just to give you an idea, my 
town is about nine-tenths of a square mile, and I have 50,000 
people in the town. So it is very congested. So it is very 
successful. They move about 37,000 people a day.
    And one of the issues that we found, anytime you have a bus 
lane, we also brought in these gypsy cabs, the gypsy vans, 
which the idea of taking cars off the road actually created 
more problems because they created more congestion in terms of 
picking people up in the middle of the street and so forth.
    So areas like mine, urban areas, I would recommend to you 
really look at the light-rail system, because even after 9/11, 
it turned out to be a godsend.
    Mr. Porcari. It is a very good point, and we actually have 
looked at the Bergen-Hudson line as one of the examples.
    One of the opportunitiesthat transit mode gives us is to 
weave it into the community in a way where, as opposed to some 
of our existing subway systems where we have very large parking 
lots and commuting to it, these are much more neighborhood 
stations. It is our intention to make all three of these lines 
connected to existing transit, both heavy rail and bus systems, 
and in that way I think it will provide some valid and very 
desirable transportation choices.
    Mr. Sires. I can tell you that along with the light rail, 
the economic growth, I think, has been really something to see, 
and the air quality obviously is much better.
    Mr. Lovaas, I have a question. In one of your articles you 
want to create a national freight planning board. How would 
that work?
    Mr. Lovaas. Well, we would be open to, you know, different 
structures, but the idea is that this would be a public and 
private venture to take a look at the freight needs in the 
Nation and how we address those freight needs in an intermodal 
and energy- and carbon-smart way. And of course, this has to do 
with what we were talking about earlier in terms of the 
increasing traffic into our ports, how do we increase that 
further, and then how those goods move from those ports to 
other parts of the country in the most efficient way possible, 
and the lowest polluting and most energy-efficient way possible 
as well.
    So the point is it is not on the passenger side where we 
need some national objectives and a real plan. We are also 
lacking a set of clear national objectives and a real plan for 
freight traffic, and that is something that we desperately 
need. So setting up a board to come up with such a plan is the 
first step towards a different way of approaching that in terms 
of policy.
    Mr. Sires. I represent both the ports of New Jersey, and 
the biggest concern always is how do we get some of these 
trucks off the road. And the New Jersey Turnpike is like I-95 
in Maryland; it is a parking lot many times. And it is just a 
big problem.
    The other issue is moving this freight, you have to have a 
place where you can put this merchandise. New Jersey has many 
warehouses that have been built due to the growth of the port, 
and they are going to grow supposedly, when the economy 
changes, another 20 percent. I am not quite sure how a national 
board would work because we work with the Port Authority of New 
York on making sure that some of these things, you know, some 
of the freight is moved.
    Mr. Lovaas. Well, we need--I mean, the short story is that 
the board would come up with some sort of----
    Mr. Sires. How much power would this board have? How much 
power would you give this board to implement some of these 
ideas?
    Mr. Lovaas. Oh, I mean, it would be up to the Department of 
Transportation to implement the ideas in coordination with 
regions such as yours as well as with the State departments of 
transportation. I mean, the point, though, is to come up with--
and this would be a useful change of pace--to come up with a 
plan with clear national objectives for dealing with growing 
freight traffic so----
    Mr. Sires. Okay. Sorry.
    Mr. Staley. Just real quickly, we are not familiar with the 
proposal of the national freight board, but this area of the 
Federal Government being involved in coordinating and helping 
meet these freight needs is really a unique role, I think, and 
an important one for the Federal Government because it involves 
interjurisdictional cooperation in many cases. So the question 
is how can you use Federal policy to create a structure in 
which win-win situations can be identified and resolved? Most 
of those are freight.
    So I would imagine even if you had some sort of a national 
freight board, a key component of that might be sort of helping 
facilitate dialogue and win-win solutions among different 
jurisdictions, and that is actually something that can be done. 
We have run into those problems in many States before, and this 
might be a framework in which that could happen.
    Mr. Aggarwala. I think the issue of poor congestion also 
highlights--and whether it is the exact proposal from NRDC or 
not, I don't know, but the need for a sense of national 
projects of national importance and focusing resources on 
things--because as you point out, that truck traffic in 
northern New Jersey not only has the local impacts, but it also 
raises the prices of goods across the United States and hurts 
our overall competitiveness.
    Mr. Sires. Thank you very much.
    Mr. DeFazio. Thank you.
    Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    The reauthorization of SAFETEA-LU does provide us an 
opportunity to think outside of the box as we make decisions on 
transportation needs, and I am particularly interested in those 
processes that would encourage thinking about intermodal 
considerations and making these decisions.
    Mr. Lovaas had mentioned that there is a process called 
participatory scenario planning that seems to work, and, Mr. 
Hansen, since you are from the State that pioneered this, could 
you talk a little bit about this process, whether it is 
mandated by statute, how are decisions made, who participates, 
how it is working?
    Mr. Hansen. I will start.
    Because of our comprehensive land use requirements, we end 
up having a very robust process to involve our citizens in the 
planning of any of our transportation investments, and for us, 
that transportation and land use connection is an element of 
it. And so when we are looking at it and the plans that are put 
out even in draft form on which then people can comment, which 
there are numerous citizen advisory committees to help us with, 
are really looking at that, the whole picture of how a 
community or a neighborhood may develop.
    So it is not just the transportation investment that is 
somehow isolated from the land use decisions or isolated from 
the economic development strategies, but rather an integration 
of that. It really allows people to be able to think 
differently about how their community is going to develop.
    I might give you one specific example, and it is really 
around the concept of what is referred to as the 20-minute 
neighborhood, and it is a concept that really says how do we 
really develop a neighborhood that is not about different 
transportation options, but really is centered around the 
individual; that is, how can they get to their essential 
services, whether it is the corner coffee shop or grocery 
store, within 20 minutes by either public transit, by walking 
or by bicycling. And the concept is to be able to have it 
really be peoplecentric.
    And so our processes are very, very much involving our 
citizens in how to be able to develop that neighborhood, how to 
be able to put all the pieces together and make choices about 
it.
    Mr. Lovaas. More and more jurisdictions, Congresswoman, are 
adopting this approach, Salt Lake City and Sacramento, just to 
name two others, and the idea is thanks to improving technology 
both in terms of land use modeling and travel demand modeling, 
and in terms of being able to increase participation through 
the Internet of a broader set of citizens, you can engage in a 
participatory process whereby you choose futures for your 
region based on preferences in terms of what happens with land 
use, what happens with transportation, and what happens with 
performance outcomes like air quality or oil dependence or 
carbon emissions.
    We think that especially for large metro areas, which have 
quite a bit of planning capacity, there should be a requirement 
that this becomes the norm in exchange for Federal assistance 
across the board.
    Ms. Hirono. And do the decisionmakers have to follow 
whatever the outcomes are of this whole process?
    Mr. Hansen. From the Oregon standpoint, they don't have to, 
but it is at their own peril.
    Ms. Hirono. Yes. That is good.
    I just wanted to mention, Dr. Staley, that you talked about 
distance-based travel as a way to decide what you are going to 
spend your money on, and I do want to mention that in my 
district, of course, which isn't rural, I represent seven 
inhabited islands, and most of those islands do not even have 
any kind of a transit system. So this kind of a way to make 
decisions would definitely impact negatively the people in my 
State.
    So what I want to do is promote intermodal choices in our 
rural areas, as well as to make sure that what we are doing 
with our scarce resources is truly to promote, as Mr. Hansen 
said, the best way to move goods and people.
    So that is just a statement. If you would like to comment, 
but that is fine.
    Mr. Staley. Yeah, real quickly, because this is an issue 
that has come up on a number of different statements.
    The road pricing--the distance-based road pricing proposal 
really is largely geared toward an urban system, and that is 
really where most of our congestion and traffic is.
    I think it is also important to recognize that the rural 
solutions are going to be different. There are many 
characteristics of rural networks and highways and roads that 
really require a different decisionmaking process; although I 
still think that, with limited-access highways in particular, 
there is a very important role for road pricing to play.
    But just to acknowledge that those concerns, I think, are 
real, and I think they have to be addressed, and that is 
something that needs to be fleshed out as part of this 
proposal.
    Ms. Hirono. Thank you.
    I yield back, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady.
    Mr. Kagen.
    Mr. Kagen. Thank you, Mr. Chairman.
    I have some larger vision questions. I would prefer in the 
interests of time if each of you would provide the Committee 
and my office with your three most important recommendations 
that are necessary not just for in-house politics, but also for 
our country's development of our highways and bridges.
    And then I want to get each of your comments about 
incentives, because when I met with our economic advisory 
committee back in northeast Wisconsin, each community leader 
had something to say. They said, look, Kagen, unless you 
provide us with incentives, we can't afford to purchase the 
mass transit vehicles, we can't afford to invest in these 
things. So I would like to hear your comments briefly on the 
incentives necessary for localities and municipalities to 
invest in mass transit.
    And finally, I would like your comments about what 
incentives you think would be most especially useful for 
converting each and every truck that we have in America to 
natural gas. I have prepared such a bill to help incentivize 
private industry to convert to natural gas for any number of 
reasons.
    So I will pitch those two questions to you and hope to see 
your written comments, shall we say, at the speed of business 
rather than the speed of government.
    So let us start over here.
    Mr. Porcari. In terms of most important recommendations, 
Congressman, flexibility within the surface transportation 
program; second, performance measures that will give you and 
everyone else an accurate way to judge our performance on 
those; and third, if we are going to actually rebuild and 
expand our transportation infrastructure, we are going to need 
to vastly ramp up the program that we have.
    Mr. Hansen. Mr. Chairman, Congressman, I would echo much of 
what my colleague from Maryland said. I do believe that we 
fundamentally need to be able to have, though, a least-cost 
planning kind of approach that really brings the level of 
discipline to be able to look within modes, across modes, and 
really looking at that land use connection to be able to make 
the best investments that were the most cost-effective.
    Number two, I would just echo the fact that we do need to 
be able to have substantial investments in the public 
transportation side, as APTA and others have brought forward. 
We have not made those investments, and I think this Nation is 
paying the price for that both in terms of dependence upon 
foreign fuel and not giving our citizens choices about how they 
are able to get around.
    Mr. Aggarwala. I think I will echo on at least two of the 
themes that I have heard here, one in terms of performance-
based decisionmaking. I think one of the things that we have 
heard from a number of the Members of the Committee, as well as 
from the panel, is that different localities, different areas 
are going to have different decisions. And a light-rail or a 
heavy-rail line that may work in New York or New Jersey doesn't 
necessarily work elsewhere, could not be the most cost-
efficient.
    The funding, as you point out, the incentives have to be 
aligned so that localities and States don't see that they would 
lose further Federal money, that they would wind up having to 
have a higher match or anything like that for making these 
kinds of investments.
    And then it is interesting, your question about natural 
gas, because I would also add as my third thing, I don't think 
we should be shy about imposing requirements. One of the 
reasons we got the Interstate Highway System built was that the 
Federal Government actually said this is the goal, and we will 
all be better off as a result, and whether it is natural gas 
trucks or more efficient vehicles, sometimes you just have to 
tell people to do it.
    Mr. Lovaas. Well, I will certainly agree with that last 
part about we need a national set of objectives, which I don't 
think we have had since the visionary sort of objectives 
established in 1956. Here we are 50 years later. We built an 
Interstate Highway System, and what is next?
    And among the objectives should be building a system that 
is more multimodal, so building out the second half of the 
system, public transportation specifically, based on how much 
oil is saved and how much pollution is reduced. And then that 
can be translated down to the regions where most of the traffic 
occurs, as Sam rightly says, can be managed through 
establishment of regional blueprints with similar objectives 
that feed into the national objectives.
    And then lastly, the best incentive--you asked about 
incentives for greater use of mass transit and investment in 
mass transit--is to increase Federal assistance for it and to 
boost that both proportionally and absolutely within the 
Federal program.
    Mr. Staley. A couple of things that I think are really 
important is, one, I think it is important to move as much of 
the decisionmaking to the State and local level as possible, 
because I think that is where the priorities can be set, and 
part of that is a performance-based system.
    Second of all, I am going to reiterate I think that moving 
to a distance-based road-pricing system will solve a huge 
number of these problems, including providing transparency in 
the system and the funding incentives necessary to think about 
alternatives, outside-the-box ways of looking at it.
    And I think--thirdly, I think we haven't talked much in 
this panel, but we need to think about new ways of bringing 
revenue streams in other than just Federal financing. That 
includes the private sector, tapping into equity, looking at 
public/private partnerships both on the transit as well as the 
highway side, because it also brings us a certain amount of 
discipline and innovation. Many of the innovations in the 
carbon, the composites, for example, often come in through 
design build and other types of systems in the private sector, 
and we can do that much more with properly structured PPPs.
    Mr. Lovaas. Actually, just very quickly, to help Sam out 
here, the road pricing is a policy that we also agree is a 
useful one to consider as part of a basket of policies that 
regions should adopt, and it should be targeted at metropolitan 
areas. And the applications to rural areas areprobably more 
limited because of how burdensome such a pricing technique 
would be.
    Mr. Kagen. Well, thank you, Mr. Chairman.
    Mr. Chairman, I represent a large rural district, perhaps 
not as large as yours, but we do have particularly specific 
problems because of the rural setting that we live in, and any 
Federal assistance and incentives would be greatly appreciated 
for the rural district I represent.
    I yield back my time. Thank you very much.
    Mr. DeFazio. I thank the gentleman.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman. Thank you very much for 
holding the hearing.
    And I just have three questions of two of the panelists 
here. And my apologies, I missed the testimony, so if you have 
already addressed it, I apologize.
    Mr. Hansen, you said in your testimony that TriMet has 
tested equipment developed by the military and by NASCAR to 
improve fuel economy. I wonder if you could explain what kind 
of technology you are testing.
    Mr. Hansen. Thank you, Mr. Chairman, Congressman Hare.
    Specifically, what our frontline workers are--I really do 
stress this--have just been key in this development. When you 
look at a typical city bus, transportation bus, about 285 
horsepower engine, diesel engine, about 45 of those horsepower 
are being used to power things such as the water pump, air 
conditioning and other things. In a combination with CALSTART, 
an alternative energy nonprofit, as well as with a corporation, 
we developed ways to be able to--the military have actually 
been using this as well--how do you take some of that parasitic 
load off of that engine by electrifying it, by, in fact, having 
electrical motors to be able to power the water pump, to be 
able to power the air conditioning and so on. And by the way, 
the NASCAR element is a clearly--all of their power goes into 
their wheels. We want that power not having to be using more 
fuel.
    We have seen over 5 percent fuel economy when we have been 
able to accomplish that. Most importantly, it is a strategy 
that is relatively inexpensive, about $15,000 per vehicle, and 
it can be retrofitted to existing fleets. So the ability to be 
able to have for us a bus fleet that maybe lasts 15 years, be 
able to become cleaner, less fuel-demanding is very important.
    Mr. Hare. Thank you.
    You discussed the process of what you called greening your 
transit operations. Is this something that can easily be done 
within the current Federal transit programs, or, you know, what 
are the changes that need to be made so the transit agencies 
can easily invest in energy-reduction processes?
    Mr. Hansen. Mr. Chairman, again, Congressman Hare, from the 
standpoint of the efforts that we have under way at APTA right 
now--and that is an effort towards sustainability--we are 
asking all properties that are a member of APTA, as well as our 
business members, to sign up to a sustainability commitment and 
in that to be able to take on a whole series of different steps 
at various levels, kind of like a lead like in that regard.
    In terms of being able to address this, there are less 
Federal roadblocks to it, very frankly, but there is not much 
Federal incentive to be able to do it. It really is an effort 
that is being funded out of our existing operations.
    Now, if you look at the return on investment, I think many 
of these investments do make sense, but the up-front costs can 
oftentimes be a prohibition for properties or for businesses to 
take on. I think that would be very helpful to be able to be 
addressed in Federal action.
    Mr. Hare. Thank you.
    Lastly, Mr. Porcari, in your testimony, you proposed a new 
transportation and land use program to be funded at $100 
million per year to support the better coordination of 
transportation and land use policies between State DOTs and 
local governments.
    Do you see the Federal Government playing a role or their 
leaving this up to the States and to the MPOs?
    Mr. Porcari. In this case, it would not be the Federal 
Government directly setting land use policies. This would be, 
essentially, capacity building for the metropolitan planning 
organizations that do not currently have that capacity for the 
kind of State, regional, local cooperative planning that you do 
not typically see on those projects. The performance-based 
aspect of it, where you can look in a mode-neutral way of the 
best way to move people and goods, would be an essential part 
of it.
    If we are going to address some of the other policy goals 
that are important to transportation, including environmental 
preservation and sustainability, we need that capacity to do 
that. At least from my perspective, I see it as a bottom-up 
approach.
    Mr. Hare. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. I appreciate the 
testimony of our panel and also of the Chairman holding this 
hearing.
    We are talking about diversifying our modal systems. I 
guess a question that I have contemplated over this discussion 
is, is the demand there? We talked a lot about rural settings 
and about some of the areas that I represent in Ohio. If we 
built a modal facility that transited some of our rural areas, 
would they use it?
    I mean, we have a car culture that is pretty evident. Would 
the consumers, in your estimation, transition easily if we 
built this type of supply side of transportation modal system?
    Mr. Lovaas. Just very briefly--and this is in my 
testimony--I think we do face a discontinuity in terms of 
demand both for transportation and for development 
alternatives. We see more of an interest, particularly among 
aging baby boomers and also among younger people coming into 
the marketplace, in development alternatives and in 
transportation alternatives. There is evidence that they are 
underserved right now by the housing market and that that 
problem is only likely to get worse if the development industry 
continues to provide the product lines it does.
    Now, the reason those product lines are provided is that 
often that is all that is permitted under local rules. 
Hopefully, some of those local rules would be revisited as part 
of these regional blueprint processes. Regardless, people are 
looking for more development choices, and that is likely to 
continue in the future, and it looks like the same is true with 
transportation.
    The Brookings Institution actually looked at vehicle miles 
traveled and vehicle miles traveled per capita. They found, as 
the outgoing Secretary of Transportation has been saying month 
after month over the past year, that this is a trend. This is 
an emerging trend that predates the increasing gas prices, but 
the increasing gas prices, especially in 2008, boosted the 
trend.
    I do not think anybody believes that gas prices are going 
to stay low forever, so we are also likely to see increases in 
demand for transportation alternatives as well as for 
development alternatives. So I do think consumer preferences 
are changing, and I do think that Federal investments should 
change to meet the future demand.
    Mr. Boccieri. Do you believe that is an alternative for 
transportation or an alternative for fuel?
    Mr. Lovaas. Well, actually, I think it is both. I think 
just the sheer scale of our demand for fuel in transportation 
necessitates that we provide choices in transportation options 
and choices in terms of vehicles--so, more efficient vehicles 
for consumers--and choices in terms of fuel, so that, yes, when 
you pull up to the gas pump, for example, you have more than 
one choice in terms of what you fill your car with or you can 
plug in your car at home increasingly in the future.
    I think, given the scale of the problem, we need to scale 
up the solutions, and I think in all three areas it is 
appropriate.
    Mr. Hansen. I would add that our citizens and our rural 
citizens, as well, want to be able to have transportation 
choices.
    Now, the answer is, it is not one size fits all. We are not 
going to put a light rail line into a very rural area unless it 
is somehow destined for high-density development, but we should 
be able to use van pools or be able to use other voluntary 
connections. People want that. Particularly with the aging of 
our population and the inability for individuals to be able to 
continue to drive or to drive at all hours of the day or even 
at night, it is something that I think is going to demand this 
to happen.
    Our citizens are asking for it. We just need to be creative 
in finding different solutions.
    Mr. Staley. I am looking at the data of reductions in VMT 
and at the increasing transit use. I do not see any fundamental 
changes in travel behavior. It is true that VMT has been 
falling, and that was largely a response to the increase in gas 
prices; and I agree that gas prices are going to go up. But if 
we look at the amount of passenger miles going to transit, we 
are finding that transit has been barely able to keep its 
market share. In many cities, like Cleveland, for example, 
which has had multiple modes for many years, we are still 
seeing a significant erosion of market share in the major areas 
of transit.
    The real task before most transit agencies--this is not 
true in Portland or even, for that matter, in Denver--is to try 
and maintain their market share, let alone increase it.
    So I think that while I do agree that there is going to be 
an increase in demand for transit--and I am actually optimistic 
about the future of transit--I do not see the numbers 
fundamentally changing travel patterns.
    So, again, we are looking for and we are talking about 
sustainable transportation. We are looking at technology-based 
solutions to these issues as opposed to mode-shift solutions.
    Mr. Aggarwala. If I could add, actually one of the things 
that I think that misses is the idea of integrating land use 
and transportation. This is not just about starting out with 
somebody who wants to take a trip and whether they take their 
car or whether they take a van pool or whether they take 
transit. Part of what we have to think about--and this is a 
generational change that we are going to have to begin--is 
whether they have to get in a vehicle at all.
    Can you begin to plan even rural communities so that people 
can walk to the store even if they have to drive to work? Only 
17 percent of trips nationwide are journeys to work. We have to 
think holistically like that.
    Mr. Boccieri. I agree that it would be driven out of 
necessity.
    Mr. DeFazio. I thank the gentleman for his questions.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. Thank you for 
holding this very important session with this panel.
    As you well know, I am from California. L.A.County has 12 
million to 13 million people with no mass transit. I mean, at 
New York, I marvel. I marvel at Washington. Yet we are stuck 
over there with that.
    There is a law in California that they will reduce 
emissions by a third by 2016. That is something. We pay higher 
gas taxes for that in California to be able to clean the air.
    Essentially, do we have a program that is going to try to 
educate the children at the school level as they grow and 
become drivers about the impacts that emissions have and about 
the transportation gridlock that we face all over the Nation? 
It is not just in our area. I can tell you, in talking about 
Mr. Hansen's solar panels on trucks, the R&D in Pueblo, 
Colorado, has already begun to put solar panels on hybrids, 
increasing the mileage from 50 on a Prius to 100 miles per 
gallon.
    Now, are we looking at technology that is going to help us 
do that?
    In L.A., the Long Beach and Los Angeles harbors, the EPA 
has gone in and has told the boards, both boards, either you 
start cleaning up the air or we are going to do it for you. Now 
they have a plan in process that is going to cut down. And all 
of these things are being done.
    However, in our specific case, the Los Angeles Metropolitan 
Transit Authority believes buses are the answer. I am totally 
not against buses, but we need to move people to work, to 
school, to the doctor, and we have gridlock. If you put people 
on a bus and you have an accident, it is going to be sitting 
there just like any other car.
    How do we begin to look at not only urban, suburban and 
agricultural areas where you have very little transportation 
capability? In other words, mass transit as you were talking, 
Mr. Hansen--but how do we begin to look at the needs of every 
different area so that we can begin to invest in that 
infrastructure?
    There is the mind-set that you cannot put a double deck on 
a freeway in Los Angeles because you are going to be looking at 
somebody's backyard. Now, I challenge anybody to go 55 miles an 
hour and find out who is cooking steak on a barbecue. It is a 
mentality, and it is convincing people to get out of their cars 
and to use either mass transit or carpools. I have been on 
carpool since back in the 1970s when I worked for Ford Motor. 
That did not work. It still is not working as well.
    So how do we begin to change mind-sets? How do we convince 
the Federal Government transportation to begin to look at 
alternatives and to put them all together, including hybrids, 
including the usage of new technology--the solar panels, all of 
that? Anybody, please.
    Mr. Hansen. Let me begin.
    First off, it does seem to me that the issue you have heard 
from many of us already, and that is to be able to break down 
some of the Federal silos, is an important part of allowing 
neighborhoods, communities--really metropolitan areas--to be 
able to make better choices that fit for them.
    In California, you have done a lot to lead the way. My 
friend and former colleague, Mary Nichols--head of the 
California Air Resources Board, the Chair of that--is really 
doing much to be able to accomplish those goals: how to be able 
to bring in more technology, to be able to provide more 
alternatives and how to educate our young people. I do believe 
that we are not realizing how much the next generation is, in 
fact, demanding those very options, and we need to be able to 
do a better job of delivering alternatives to that single-
occupant vehicle.
    It seems to me from afar, you have made real progress in 
the L.A. basin. Obviously, there are still a lot of needs to be 
met, but it does seem to me that you have made progress both on 
the land use side as well as on the fuel and on the vehicle 
sides.
    Mrs. Napolitano. Thank you.
    Mr. Lovaas. California has also made great progress in 
terms of increasing the efficiency of appliances, which may not 
sound relevant. However, it is in the sense that what we are 
talking about is providing the same services that people 
currently enjoy in order to have a high quality of life and to 
have a variety of job options and to have access to jobs, but 
without having to drive as much. We have managed to do that, to 
decouple the services that people receive from technology from 
how much energy that technology uses.
    We need to do the same now with our transportation system. 
Of course, in transportation, the closer applicability is in 
our automobiles and in that they are now going to become more 
efficient, thanks to Congress' enacting higher fuel economy 
standards in 2007.
    The average American will not see much change besides the 
lower amount that they pay at the gas pump, in terms of what 
they are driving, because of improving technology in the 
vehicle marketplace. We need to do something similar with our 
transportation system, and basically, we need to provide 
similar services to people without requiring them to drive so 
much to enjoy those services.
    Mrs. Napolitano. I will yield in a second.
    Mr. Lovaas, in L.A., we have San Bernardino and other 
counties, and you have a quarter that has not expanded. Some of 
those people drive 2 hours a day from those counties into Los 
Angeles, and yet we have not focused the funding to be able to 
allow them to have access to mass transit. That is important to 
understand.
    I am sorry. Somebody else wanted to speak?
    Mr. DeFazio. Anyone on the panel can briefly address this. 
Then we are going to move on. We are not going to solve L.A.'s 
problems with this panel today. They are too big for us.
    Mrs. Napolitano. I am looking for ideas, Mr. Chair.
    Mr. DeFazio. I know. We are all looking for ideas, and they 
can submit them afterwards.
    Mrs. Napolitano. Sorry.
    Mr. DeFazio. Quickly, does anyone have a further response?
    Mr. Staley. Yes.
    Very quickly, I think the 91 express lanes are a good 
example. Again, it is going back to road pricing, but we forget 
that the Orange County Transportation Authority is able to fund 
transit in that corridor by using the road pricing example on 
91 express lanes.
    So part of it is finding new funding for providing the 
transit, and that can be done. In fact, L.A. has the density 
and it has the mixed use. We have alternatives. The question is 
finding the right mechanisms to, one, fund those alternatives 
and, two, to deliver those alternatives.
    As you, I am sure, know, a lot of that has to do with local 
implementation, as it has to do, in my view, with anything 
else.
    Mrs. Napolitano. Thank you.
    Mr. DeFazio. Thank you.
    Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    I apologize that I missed your testimony in person, but I 
did read part of it.
    Mr. Hansen, I know that you touched on this a little bit 
earlier, and I think that I would agree. I mean, we want to try 
to double our market share for public transportation in the 
coming years. The question is, I think, how you encourage rural 
communities that they have as much at stake in public transit 
investments as we do in suburban and in urban communities 
because it is a sort of shared value.
    So I address that question to you.
    Dr. Staley, I think you touched a bit on this as well.
    Then, Secretary Porcari, because you are from my home 
State, I will ask you this as we are going forward: What ideas 
do you have about ways that we can make investments in sort of 
short-term kinds of transportation projects that have long-term 
value, where you might invest, for example, in a rail project 
or in another transit project in a suburban area--say the 
Chesapeake Bay watershed--and convince those people in the 
outer rural communities that it is in their best interests to 
prioritize transit projects that may not be anywhere near them, 
precisely because you are trying to protect where it is that 
they live and work and play?
    So I will leave that to the three of you.
    Mr. Hansen. Let me begin.
    First, it seems to me that all citizens of this country, 
whether they are in rural areas or are in urban areas, are 
vitally interested in sustainability and specifically in the 
challenges of climate change, because certainly a ton of carbon 
from our urban areas or from anywhere in the world has the same 
effect on climate change, and needs to be able to be addressed.
    Maybe more specifically to the issues of rural citizens and 
what is needed, I think the forefront of that debate is going 
to really come into focus when we look at our elderly and 
disabled populations within those urban areas. How do we really 
provide movement and mobility needs for them, sometimes to be 
able to get them to the urban areas for medical or for other 
essential services, but also just to get them to places within 
that same community?
    I think what we need to be able to do is to find different 
scales, different approaches, to be able to provide for that 
transit component, that alternative. The rural communities 
oftentimes were founded long ago. Even in the rural areas--and 
my colleague from New York City mentioned this earlier--the 
ability to be able to walk within those neighborhoods, within 
those communities, was very important. We need to be able to 
either establish or to reestablish that same capability.
    Ms. Edwards. Thank you.
    I am going to run out of time so, Secretary Porcari, if you 
could, please address that because it becomes a question of how 
you prioritize. You know, we can say all of us want 
sustainability, but then when it comes down to setting those 
priorities, that rural community may say, "No. No. No. Do the 
roads in my area," not recognizing the deep impact that some 
other kinds of investment might have on their living area.
    Secretary Porcari.
    Mr. Porcari. Congresswoman, if there were unlimited 
funding, we obviously would not have that question. We would be 
able to satisfy all of the needs. We have what we call one 
Maryland approach: We have very rural areas and some of the 
most congested areas in the country. The balance, the mix, of 
what we do for transportation projects, both rebuilding and new 
construction, is different in each of those. Part of that is 
having an honest dialogue with our rural communities and with 
our more urban communities about the priorities, and they tend 
to naturally sort themselves.
    So a major transit project in our Baltimore-Washington 
corridor, for example, is the only new capacity solution that 
we can do in that corridor. Conversely, in our rural areas, 
although we have transited every part of the State, it tends to 
be more of a highway solution.
    Having that straight-up, honest dialogue with the 
communities, I think, is a very important part of it. Then 
directly listening to the quality-of-life components from our 
citizens and in our urban areas, again on the transit side, can 
directly benefit quality of life; and making sure that in our 
rural areas we are attending to the highways and to other 
transportation needs is one way we do that.
    Ms. Edwards. Thank you. I think my time is about up.
    Mr. DeFazio. Yes. Thank you.
    Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman. I would like to thank 
the panel as well.
    The topic is Energy Reduction and Environmental 
Sustainability in Surface Transportation. In hearing the 
Chairman's opening remarks about the least-cost impact on the 
environment and in hearing the Ranking Member's remarks about 
balance and common sense, I have got three different areas I 
will just briefly talk about. I would ask for anyone who would 
like to, to respond.
    When this Committee had a hearing last year dealing with 
the truck weight issue, there was a mismatch across the country 
dealing with truck weights. We heard one of the panelists at 
that time talk about, if they were bought at the same level 
with 100,000 pounds, going from a 5-axle to a 6-axle to prevent 
the impact on the foot imprint, this one company actually could 
save $73,000 a week in fuel costs as well as take out 130 
pounds of C02 plumes in the air.
    So my question would be: Do you favor having some type of 
uniformity in that truck weight issue?
    The second issue is: You have heard from Members from 
different States. I am from Maine. We are a very rural State. 
What do you think we can do as far as passenger rail? Clearly, 
in the northern part of the State, the population is not there. 
It probably does not warrant it. Do you think that the Federal 
Government should be proactive in looking at freight rail of 
which the capacity is not consistent? Should freight rail and 
passenger rail work more collaboratively to provide that type 
of mode?
    My third comment or question: When you look at land use 
planning and the discussion in Congress that deals with energy, 
here again, some States are going to have to build capacity as 
far as when you look at transmission lines.
    Do you think this is an opportunity, particularly in rural 
areas, when you look at environmental impact, for the States to 
actually use the median strip on the interstate as a way to 
actually put in ground transmission lines and where the rental 
fees on those transmission lines can be put back into 
transportation projects?
    When you look at the electric rates, one of the costs is 
the transmission line. That is a good area when you look at low 
impact, and this might be an opportunity to raise money to help 
our infrastructure needs.
    So, with that, I will just open it up for anyone on the 
panel who might want to address these three different areas.
    Mr. Lovaas. Congressman, in terms of transmission lines, 
that is something that we have not studied, but you know, we 
would certainly be interested in it if there is a synergy in 
terms of infrastructure investments there.
    In terms of trucks, we do not have a position on that. All 
I can say is that there is a countervailing safety concern that 
I have heard voiced by some, so that is something to remember.
    In terms of rail, I think you have hit the nail on the head 
about the need for passenger rail and freight rail to come 
together and to advocate for an investment plan, a national 
investment plan, that meets the needs of both and that expands 
the capacity of both as opposed to some of the competition that 
has occurred in the past.
    As a matter of fact, NRDC is part of a new coalition, the 
One Rail Coalition, which brings together for the first time 
passenger rail providers and businesses and freight rail 
providers and businesses. We are working, and we will continue 
to work with the Chairman and this Committee as well as with 
the T&I Committee generally on that issue because we do feel it 
is high time for there to be one plan for rail, both passenger 
and freight, in terms of a Federal investment.
    Mr. Porcari. If I may, Congressman, first, in terms of the 
use of the median and of the right-of-way in general, that may 
be a possibility. We have not looked at electricity. 
Essentially, we use the medians as a piece of the information 
superhighway. We have throughout the State used it to lease 
fiber, and it is one way we are bringing fiber at no cost to 
some of the most rural areas of the State, so it is as much an 
economic strategy as anything else.
    The points that were made on passenger and freight rail are 
important. In some ways, the most precious transportation asset 
we have is right-of-way, and where we can share rail right-of-
way, where we can coinvest in new technology to increase 
capacity, not just in our urban areas, but throughout the 
country where the ridership is there, the two can coexist very 
well. You get into this virtuous circle where the freight rail 
investments that have not been made over the years can be 
partially made through the passenger rail investment.
    Mr. Hansen. On the passenger rail, I think we in the 
Pacific Northwest too easily fall into the trap of looking at 
travel times by air between Portland and Seattle, which are a 
half-hour to 40 minutes of flight time. Yet, when you look at 
the amount of time it takes to get to the airport through 
security and then from Seattle from the airport and into 
downtown, the rail--the Cascades--which is our Amtrak-run 
passenger rail, really is about equal in time. Yet we have not 
even taken into account the overall cost to the society as a 
whole of investing in additional runway capacity or in other 
things; and can we, in fact, move some of that passenger airway 
off of flights and into that passenger rail and really be a 
more efficient overall investment.
    I think that overall sense of how do we integrate these 
modes is tremendously important. Certainly, California, in 
looking at their high-speed rail opportunities, is exciting as 
well.
    Mr. DeFazio. Thank you. I want to thank this panel. I think 
you have given us some good information. As to any further 
ideas you have about how we could move in the least cost 
direction, how we could begin to break down the silos and how 
you could address the other concerns you have heard from some 
of the other Members here, we always welcome your comments, and 
we would be happy to take credit for the best ideas you have.
    With that, I thank this panel, and would ask the next panel 
to come forward.
    Mr. DeFazio. Okay. Let us get started, Ms. Banks. I 
understand you have a 2:40 flight. I know how hard it is to get 
to the west coast, so we might just depart a little bit because 
the weather is pretty funky outside. Why don't you give us your 
1-minute, and we will let people briefly address questions to 
you, and we will get you out of here. Then we will go to the 
rest of the panel if we could.

  TESTIMONY OF SHARON BANKS, CHIEF EXECUTIVE OFFICER, CASCADE 
  SIERRA SOLUTIONS, COBURG, OR; TOMMY HODGES, CHAIRMAN, TITAN 
TRANSFER, INC., SHELBYVILLE, TN; DAN SCHAFFER, PRODUCT MANAGER, 
  TX ACTIVE ESSROC ITALCEMENTI GROUP, NAZARETH, PA; AND DAVE 
   TILLEY, PRESIDENT, CRAWFORD GREEN SYSTEMS, WILMINGTON, DE

    Ms. Banks. Thank you, Mr. Chairman.
    Mr. DeFazio. If you were here for the first panel, I am 
asking you to summarize your testimony to 1 minute, and then we 
will ask you some questions.
    Ms. Banks. Okay. Thank you.
    My name is Sharon Banks. I am the CEO and founder of 
Cascade Sierra Solutions. We are a nonprofit organization that 
operates a program on the west coast to upgrade tractor-trailer 
trucks with fuel-saving technologies.
    We operate outreach centers that are collocated with truck 
stops to provide a convenient place for truckers to come and to 
learn about fuel-saving technologies. We bring together more 
than 60 products that can help save fuel and that can reduce 
emissions. Our organization is compromised of a number of 
public and private partners dedicated to our mission.
    Today we have upgraded about 2,000 trucks, and we have 
about 1,200 more in process. With the proper upgrade, we can 
save about 5,000 gallons of fuel per truck per year, or about 
50,000 gallons over a 10-year life cycle.
    Our organization would like to grow and to replicate this 
nationally, but we feel that the program really needs to be 
part of the national strategy.
    Mr. DeFazio. I will go first.
    As to 5,000 gallons per truck per year, what is the 
potential market out there? How many unretrofitted trucks are 
there that could benefit from this technology?
    Ms. Banks. Well, everything that was manufactured prior to 
2007 is a potential candidate for a retrofit, both for diesel 
particulate filters, which help reduce toxic diesel emissions, 
but also for the different strategies that we have in idle 
reduction, better tire technology and in light-weighting.
    There are about 40 different things that we can do to 
upgrade a tractor-trailer truck. I think there are about 
600,000 long-haul trucks on the road, and probably about 5 to 
10 percent of them have been upgraded at some level, but the 
vast majority of them have nothing upgraded on them.
    Mr. DeFazio. All right. Now, you are not saying that all 
trucks post 2007 come with all of these accoutrements.
    Ms. Banks. They do not. Very few of the salespeople even at 
the brand-new truck OEM level are trained in how to get the 
best fuel economy. You really need trained technical people 
that know the vocation, that know the operating speeds and the 
climate, and that know the vehicle miles traveled and the 
terrain that they are operating in to provide a really proper 
upgrade of that piece of equipment.
    Mr. DeFazio. Since we know the technology exists and we 
know it works, what is the biggest barrier? Is it the cost to 
the trucker, particularly if you are dealing with other than 
large trucking companies or even some large trucking companies 
who today, in this market, may not have the money? Or is it 
more a lack of knowledge that these technologies are out there? 
Which is it?
    Ms. Banks. Well, there is a huge awareness barrier, and 
there is also a lot of equipment that does not really work very 
well that people try to sell.
    Mr. DeFazio. Which has given some of this technology a bad 
name?
    Ms. Banks. Exactly. There is a huge capital cost barrier. 
Even though the driver could save as much as $700 to $1,000 a 
month in fuel for a $300 loan payment, the banks just do not 
see it that way. They just look at the financials, and they are 
very, very wary of trucking companies to begin with. They have 
the most difficult time getting financing. So we have taken it 
upon ourselves to create a revolving loan fund, and we have 
raised about $11 million so far.
    Mr. DeFazio. What is your default rate?
    Ms. Banks. We have had nine defaults out of more than 1,200 
loans.
    Mr. DeFazio. That is pretty good.
    Ms. Banks. From seven of those, we have recovered the 
equipment and have installed it in another vehicle, so we have 
very, very low losses. And we are looking to expand the loan 
program because we do not need grants, we need loans. We need 
loan capital so that we can loan the money out, collect it 
back, and then loan it out again to someone else.
    Mr. DeFazio. Okay. Thank you.
    Do other members of the panel have questions? Anybody?
    Yes, Mr. Hare.
    Mr. Hare. I will not keep you, Ms. Banks.
    If the Subcommittee can provide you with one thing other 
than with unlimited funding, what would that be? If you could 
have on your wish list what we could do for you other than give 
you unlimited funding, what would that be?
    Ms. Banks. With funding I think we could expand very, very 
easily. Everybody wants to have clean air, everybody wants to 
save fuel, but we just need to enable that process to be able 
to allow truckers to step up to the plate.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. DeFazio. For instance, California has adopted idling 
restrictions. What has the State done to facilitate and to help 
people deal with that--with APUs or with anything else? Have 
they done much down there?
    Ms. Banks. Well, unfortunately, once it is a law, then none 
of the funding is available to help. You have to be an early 
mover to get funding. So now that it is a law, there is no 
funding for APUs in California.
    Mr. DeFazio. Can you explain that? Now that they have to 
have it, they cannot get the money; but before, if they had 
wanted it and they did not have to have it, they could have 
gotten the money?
    Ms. Banks. That is the way it works. If you are an early 
mover and you move prior to the regulation, then you can get 
assistance.
    Mr. DeFazio. Where does this money come from that has this 
restriction?
    Ms. Banks. That is pretty much the Moyer programs and Prop 
1B both. If it is a requirement for you to be upgraded, then 
you can no longer qualify for the funding. So it is important 
in California that we push people to take advantage of the 
opportunities prior to the rule.
    Mr. DeFazio. Okay. We have some good news and some bad news 
for you. You are not going anywhere, so I guess you can sit 
through the rest of the panel.
    Ms. Banks. Okay. Great. Then I guess I can stay all day.
    Mr. DeFazio. All right. We will proceed.
    Are we working to get her an alternative? Great. Her flight 
was canceled. It is snowing.
    Mr. Hodges.
    Mr. Hodges. Thank you, Mr. Chairman.
    I will begin by saying I am a trucker. I am Tommy Hodges. I 
am chairman of Titan Transfer out of Shelbyville, Tennessee. I 
would like to thank the Committee for allowing me to come and 
to offer this testimony. I hope you have had the opportunity to 
read and to review the testimony.
    I currently come to you not only as a trucker but also as a 
representative of American Trucking Associations, mostly as the 
chairman of our sustainability task force, which is almost 2 
years old now, to address the very issues of our carbon 
footprint.
    Out of that task force, we recommend to our members a six-
point effort that is proven to reduce our carbon footprint. I 
hope that the Committee will take time to read those things 
because what they do, in essence, is provide a commonsense, 
low-cost way to reduce our carbon footprint and to green up the 
air that we all breathe commonly, and also to save our 
individual companies money.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Mr. Schaffer.
    Mr. Schaffer. Thank you, Mr. Chairman.
    Mr. Chairman and Representatives, good afternoon. My name 
is Dan Schaffer. I am the United States-based product manager 
for ESSROC's line of photocatalytic cements.
    ESSROC Italcementi Group was commissioned to develop this 
breakthrough cement technology as a way to abate the ever-
increasing pollution in our urban areas and as a way to keep 
our concrete pavements and surfaces cleaner and more 
aesthetically pleasing without exterior maintenance, ultimately 
to contribute to a better way of life.
    The use of this unique cement technology, when used in 
concrete, does not only resist the buildup of the atmospheric 
compounds that will tend to discolor concrete over time, but 
also and more importantly, the technology will actually absorb 
and reduce primary pollutants--pollutants that are harmful to 
human health and pollutants that are harmful to the 
environment--pollutants such as nitrogen oxide gases, NOx, SOx, 
VOx, particulate matter, ultimately urban smog, ground-level 
ozone.
    So, with that, I thank you, and I welcome any questions 
anyone may have regarding this technology.
    Mr. DeFazio. Okay. Thank you.
    Mr. Tilley.
    Mr. Tilley. Thank you, Mr. Chairman.
    In reading the summary of subject matter that the Committee 
presented for this hearing, they mentioned looking at several 
strategies for meeting emerging energy and environmental goals, 
and some of their strategies involved more efficient lighting. 
Our company has the technology to address better controlling 
street lights across the country. There are 50 million street 
lights across the country, so it provides a huge opportunity 
for savings.
    On the first panel this morning, there was a lot of 
discussion about things that would have immediate results and 
about things that would be cost effective. Our technology would 
have immediate results because, as soon as you start better 
controlling street lights--that is, turning them off when they 
are not needed--you are going to save energy. When you save 
energy, you reduce C02 emissions. We talk about cost-
effectiveness. This switch, this technology, could pay for 
itself in as little as 4 months.
    Again, thank you for the opportunity.
    Mr. DeFazio. Okay. Thank you.
    I will start first.
    Just to come back, Ms. Banks, I am still confused. Some of 
the money you are talking about is Federal money, and some of 
it is State money for the loans, right?
    Ms. Banks. For the loans, we have received $1.13 million 
from EPA, and that is available nationally. We have leveraged 
private-sector capital through very few means.
    Mr. DeFazio. But the EPA money has this restriction on it 
that you cannot use it to meet a legal requirement?
    Ms. Banks. No. That is more referring to California grant 
money.
    Mr. DeFazio. All right. Okay. I was confused by that.
    Ms. Banks. As for the funding that we have for the loan 
program now, some of it is State-specific, but a smaller amount 
is nationally available.
    Mr. DeFazio. Okay. I would just point you toward, depending 
upon the final construct within the so-called stimulus package, 
there is a small amount of money dedicated to anti-idling 
another that might become available in the future. So it would 
just be something to follow.
    Mr. Hodges, when I look at your testimony, what I find is 
that if I look at your various impacts, congestion is the 
greatest single contributor. The reduction of congestion, if it 
were to be eliminated, which would be very difficult, would 
contribute the most in terms of fuel savings. The second was 
idling, and then the last was the idea of speed limiting.
    I guess my question is: Do you have any sort of innovative 
ideas on idling? You might have been here or your associate may 
have been represented. We did a hearing where we looked into 
the issue of shipping freight-forwarding brokers and that, 
obviously, they have no regard for the efficient use of a 
trucker's time or of their resources in terms of their bidding 
system, particularly for smaller, independent truckers.
    I wonder if you have any thoughts about that. I mean, if we 
want to deal with at least that sort of waste in the system and 
get people to move with fuller loads and get them to move in 
more efficient routing and get them to move more towards some 
kind of "just in time," don't you think we are going to have to 
deal with the total deregulation of that industry?
    Mr. Hodges. Well, probably to answer your question, Mr. 
Chairman, about the brokerage side of it, I heard two, or three 
maybe, sub-questions in that comment, but that is a very 
difficult animal to get your arms around.
    First of all, the marketplace pretty well takes care of the 
balancing act through those various mediums that you talked 
about. What we lose concept of in the real world is that each 
load that we haul has its own separate requirement from that 
shipper or from the receiver of the goods to not only balance 
the movement of goods from one point to another, but it also 
has to match up the needs of when they want it delivered and of 
when they want it picked up. Now you begin to be a very, very 
complex system, and a national planning board or some obscure 
agency out here that is going to try to monitor this and to 
allocate the loads really is beyond my comprehension.
    Mr. DeFazio. So you somehow made them factor that into 
their business equation. It is not a factor in their business 
equation? They could care less if there were an incentive or a 
disincentive for them to develop and/or program people in a 
more efficient way.
    Mr. Hodges. Well, that certainly would be the most 
efficient goal that you could accomplish where there were no 
empty miles.
    Our company began doing business with Nissan, the first 
Japanese transplant, who not only does "just in time" and "just 
on time," but a 5-minute window, and they do not mind paying 
for that truck to come back to them empty. So, basically, we 
have got a 50 percent empty mile factor in there. They pay for 
that, but they do not want the interruption in the transfer of 
their raw materials coming to their plant that goes straight 
from the back of our truck to the assembly line. No warehouse.
    So, to be able to factor that in and to try to put on a 
load and make 50 percent of those empty miles, now loaded 
miles, you know, the shipper is not going to allow you to do 
it. So, as I see it, you have got those kind of factors that 
also enter in, that become prohibitive to that kind of a 
system.
    Mr. DeFazio. Right. I was here through the speed-limit 
debate, and it was a little more contentious. In fact, it was 
my job to tell Mr. Roe, then Chairman, that I could not support 
his double nickel, my being a westerner. I remember that very 
well.
    You are proposing that there could be savings with truck 
governors. I have heard from safety advocates and from others 
that rear-end collisions are a big problem, and if you were 
moving trucks slower, that would be a big problem. Of course, 
cars would not have governors, but I assume you are saying 
everybody would be limited to 65 miles per hour; is that 
correct? We would be again preempting the States, which we have 
given them jurisdiction to go higher, and that would be 
preempting them back.
    Is that what you are proposing?
    Mr. Hodges. Yes, sir. The short answer is, yes, sir.
    We have proven not only in theory, but in the practical 
application of our fleet, for every tenth of a mile that-- for 
every mile per hour we slow our trucks down, we save a tenth of 
a mile in fuel economy.
    Mr. DeFazio. Right. Wouldn't that come through legal 
enforcement and through the training of truck drivers and 
through giving them the option that they would be able to 
accelerate if they needed to, but that you would just have them 
drive slower when it would be safe? I mean, couldn't that be 
done where they are finding the so-called sweet spot?
    I am just going to tell you that I do not think this 
Committee is going to go back and preempt the States for what 
the GAO and others say are dubious savings in terms of fuel. I 
just want to caution you that this is one of your weaker legs. 
It has the least amount of projected savings of those three 
areas.
    Mr. Hodges. Yes, sir. We concur that it is a very emotional 
issue with most constituents, with most people, but the fact is 
it does save fuel.
    Mr. DeFazio. Right. But there is that testimony from Ms. 
Banks that we could save 5,000 gallons per truck per year with 
these retrofits. I cannot remember if she gave me the number of 
trucks, and I did not quite get around to multiplying it out, 
but again I think it would probably exceed the ostensible 
savings of the speed limits, without the problems. Anyway, I 
urge you to rethink that part.
    Mr. Schaffer, I am not an engineer. I have read your 
materials. Over time, does the capability of this new kind of 
concrete lose the capability of taking the NOx and others out 
of the atmosphere?
    Mr. Schaffer. Mr. Chairman, no, absolutely not.
    The components that are blended into the Portland Cement 
are catalysts, and the sheer definition of a "catalyst" is a 
substance that accelerates a process but is not consumed in 
that process. These products are not consumed. As long as 
ultraviolet light will hit that concrete and as long as the 
concrete remains intact, the technology will work.
    Mr. DeFazio. Very interesting. Then one other question.
    There has been some debate and discussion over the 
production of cement itself. The Europeans use a different 
standard than we do, which creates fewer global warming gases 
in the production, because they allow more fly ash and other 
materials in there. They claim it is as good and that whoever 
sets our standards here does not seem to agree with that. Are 
you aware of that discussion or controversy?
    Mr. Schaffer. Yes, absolutely.
    Supplemental cementitious materials are very popular to use 
within concrete, things such as a fly ash; ground granulated 
blast furnace slag is another. That is becoming very popular 
within the concrete industry.
    From a cement manufacturing standpoint, the ingredient in 
concrete certainly is energy prone, and it does require a great 
deal of energy. However, our plants are continuously upgrading 
to newer technologies to reduce our energy footprint.
    Mr. DeFazio. Right. If we adopted a different standard and 
allowed more of that additive and if it were as durable, would 
it be incompatible with your new technology?
    Mr. Schaffer. No, not whatsoever.
    Mr. DeFazio. Okay. Thank you.
    We will go in the order we went before. So I guess it will 
be Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. Schaffer, in your testimony, you said that the product 
has been proven to reduce nitrogen oxide, sulfur oxide and 
other chemical compounds. Can it also reduce carbon dioxide 
emissions?
    Mr. Schaffer. No, it cannot. Carbon monoxide, yes, but 
carbon dioxide, no. The components, the pollutants, that it can 
reduce--the NOx and the SOx--these are very extreme toxic 
compounds that have a direct impact on human health.
    Mr. Hare. Does your product's effectiveness decrease over 
time? For example, if the cement were used for a road project, 
would the pollution-reducing results decrease over time? What 
would you need to do to reapply that?
    Mr. Schaffer. No, none whatsoever. Once you have this 
special cement within the concrete matrix, the catalyst that we 
blend into that cement will remain intact and will continue to 
work indefinitely.
    Mr. Hare. You used this on the I-35 bridge in Minneapolis, 
I believe.
    Mr. Schaffer. Not on the bridge itself.
    Mr. Hare. You used this on the entrances to the bridge?
    Mr. Schaffer. Yes. They were two 30-foot-high monuments 
that they used, the TX Active cements, within that concrete. 
Linda Figg, who is the president of Figg Engineering and who 
designed the bridge, wanted to do a pilot test project first in 
those types of applications. Because of the success that we 
have shown with the technology thus far, she is trying to 
implement the technology throughout a bridge span.
    Mr. Hare. Do you know what kind of pollutant reduction the 
city of Minneapolis experienced as a result of the TX Active?
    Mr. Schaffer. No. Now, keep in mind, these monuments are 
very small in structure to the entire span. They are more 
gearing towards the self-cleaning aspect where you are reducing 
those atmosphere compounds from adhering to that concrete 
surface, keeping these beautiful structures clean, these 
beautiful, symbolic structures clean over the service life.
    Mr. Hare. Mr. Tilley, your technology seems like it is 
simple and is a low-cost solution for reducing energy 
consumption, it would appear to me.
    How many towns or cities have implemented your technology?
    Mr. Tilley. Actually, this is a brand-new technology. It is 
perfect timing for us to introduce this at this hearing. We 
currently have tests going on in one town called Topton, 
Pennsylvania. They are running a test right now, just to prove 
that when you turn off a light, you do, in fact, save energy. 
We are putting some actual data to it. Then we will be working 
with the utility as well for a reduction in costs.
    Mr. Hare. That is a study you are doing?
    Mr. Tilley. It is just going to be about a 2-week study 
because, again, we are studying what happens when you turn off 
a light.
    Mr. Hare. Yes. If you could maybe get the results of that 
back to us, I would be very interested.
    Mr. Tilley. Sure.
    Mr. Hare. In turning the lights off, has there been any 
increase in crashes, fatalities, or crimes where the technology 
has been implemented? Are you seeing any downside to turning 
off the lights, if you will?
    Mr. Tilley. No. Again, this is early. One of the things 
that we did put in the testimony is that it is incumbent upon 
the locale, or if it is a borough that is doing this or the 
Department of Transportation, to study the area where these may 
be used for safety, whether it is for traffic safety or whether 
it is for security. In a populated area like Washington, D.C., 
I would submit that it is probably not a good technology to use 
in downtown Washington, D.C. ever. In Topton, Pennsylvania, it 
is very rural and very open. It is a fine technology.
    Mr. Hare. Just lastly here--and I am not picking on you, 
believe me--as to any communities that have considered 
implementing this, have they heard any negative feedback from 
the community? In other words, is there concern that turning 
these lights off is going to cause a problem?
    Mr. Tilley. Not at this point. As a matter of fact, we are 
working right now with a town called Bow, New Hampshire. It is 
in the very early stages. As a matter of fact, just yesterday 
afternoon, we started. Bow, New Hampshire turned some 220 
lights off permanently to save money. That caused an uproar in 
the town. We are working with them right now to see if we can 
turn some or all of them back on during the busy hours and then 
turn them off later at night. So we may actually have the 
reverse in a couple of towns where they can actually provide 
lighting where they would not be able to without a savings.
    Mr. Hare. Ms. Banks, I am sorry your flight got canceled. I 
asked this question before. Maybe I phrased it incorrectly.
    Other than funding, what can we do in terms of this 
Subcommittee and this Full Committee of the House to help? I 
mean, I know money is a big thing. Other than that, is there 
anything absent the money end of it, or in addition to the 
money end of it, that we could do that would help you out?
    Ms. Banks. Well, rules tend to help facilitate getting 
equipment on trucks. But I would like to see that as a last 
resort just because there are so many truckers, especially the 
mom-and-pop businesses that are barely surviving right now. 
When government mandates rules, it makes it very, very 
difficult to stay in business.
    Mr. Hare. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Since you were directing questions to Mr. Tilley, Mr. 
Tilley, I want to apologize. The Republicans had to go to a 
meeting, and you were here at the request of Congressman 
Gerlach. I am sure he would be here if he were not otherwise 
occupied.
    Mr. Tilley. President Obama is more important than I?
    Mr. DeFazio. To the Republicans, I am not sure that he is 
more important.
    Mr. Tilley. Thank you.
    Mr. DeFazio. So, with that, I will go to Mr. Boccieri.
    Mr. Boccieri. Thank you, Chairman.
    Help me out in understanding why we use diesel for trucks. 
The carbon footprint is larger. Would it be much easier just to 
transition it to unleaded gasoline?
    Mr. Hodges. I assume that is directed to me.
    Mr. Boccieri. Yes, sir, Mr. Hodges.
    Mr. Hodges. There are a lot of factors.
    First of all, diesel is a derivative of the refining 
process. Basically, it used to be a byproduct. It is a 
lubricant as opposed to an accelerant that gasoline is through 
the refining process. It also generates the most power for BTU 
power that it can do. When you consider the high horsepower 
required to move a load of 80,000 pounds from one segment to 
the other, considering topography, it is the most efficient 
fuel that we have seen.
    There is a strong move right now, or a lot of conversation 
to go to LNG or to some alternative fuel. This is fraught with 
problems. First of all, there is not an available engine right 
now, that I am aware of, that would deliver more than 330 
horsepower when we are typically needing 450 to 475 to move 
with traffic and to move with speed. So it is the availability 
of the engine manufacturers to come up with an engine that 
would be a viable substitute. Then you get into delivery 
problems. You are putting now an accelerant on a truck that 
normally has a lubricant.
    So I do not know if that answers your question, sir, but it 
has quite a few problems. Right now, regardless of what some 
very high-profile people say, it is not a viable option to the 
average trucker.
    Mr. Boccieri. Ms. Banks, did you have a comment?
    Ms. Banks. I just wanted to say that Cascade Sierra has 11 
liquid natural gas trucks that are heavy duty that we are going 
to be putting into the Port of Los Angeles. They are very, very 
expensive, and there is not a really good fuel infrastructure 
available yet, but we are going to learn a lot in getting these 
11 trucks and in testing them out. These are higher horsepower 
liquid natural gas, not CNG but LNG trucks.
    Mr. Boccieri. Mr. Hodges, would you get the same BTU output 
from a natural gas retrofitted vehicle?
    Mr. Hodges. I am not technically sure. The information that 
has come my way says we could get more BTU actually out of 
diesel than we would get out of the LNG.
    Mr. Boccieri. Okay. My last two questions, really quickly.
    Mr. DeFazio. Ms. Banks was shaking her head. I think she 
can answer that.
    Ms. Banks. Eighty percent less, so the BTU is definitely 
there in the diesel.
    Mr. Boccieri. Okay. Real quick, Mr. Tilley and Mr. 
Schaffer. Obviously Ohio has significantly more cloud coverage 
than California. How would that affect, in terms of wattage, 
your equipment if we use them on street lamps and in terms of 
the cement--and I am intrigued by your testimony with respect 
to asphalt and, you know, reengineering some of our roads. What 
do you think that would have an effect on in terms of the 
weather?
    Mr. Schaffer. If I understand the question correctly, how 
does cloud cover affect the process by which this works?
    Mr. Boccieri. At least in changes in the weather. I mean it 
is a much different climate in Ohio.
    Mr. Schaffer. Keep in mind you need ultraviolet light to 
trigger this process, this photocatalytic process. UV light is 
very diffuse in nature. It is scattered and bouncing all around 
us. If you go on vacation to the beach on a cloudy day and 
don't put sunscreen on, you usually still get burnt. That is 
the same concept here. There is enough UV light present within 
the atmosphere to trigger the process by which this works.
    Mr. Tilley. You really won't see a difference in cloud 
cover as far as usage goes, because the street lights come on 
at sunset. It uses a standard photocell. So when it gets dark, 
just like it has done now, this photocell will turn on the 
lights. It is 5 o'clock at night in December, 9 o'clock at 
night in June. What this will do is turn the light off late at 
night, turn it back on early in the morning, so as traffic 
requires it. Cloud cover during the day will really have no 
effect.
    Mr. Boccieri. If there was a solar panel on the light 
structure itself, would there be--a day where you had 
significantly less sunshine, would that significantly impact 
the wattage or the output of your product?
    Mr. Tilley. No. This does not use a solar panel at all. 
There is a different technology which is much more expensive, 
which uses solar panels to charge batteries to power lights. 
This is a completely different technology than that.
    What this will do is simply turn the lights off late at 
night when they are not needed, but this does nothing to power 
the lights. The power for the light will still come from the 
normal grid.
    Mr. Boccieri. Is it your understanding, though, that the 
wattage would be significantly reduced from the solar panel?
    Mr. Tilley. From the solar panel, that is not necessarily 
the case. It may be the case, but again, our technology isn't 
using the solar panels. Louisville, Kentucky, I guess is a town 
that has experimented quite heavily with solar panels. I am not 
sure how much they reduce their wattage, to be honest with you, 
you know, to run off of the solar panel and battery. As I 
understand, those systems using solar panels cost about $4,000 
per street light. This costs about $100 per street light. 
Normally a street light will use up between $4- and $500 at the 
most, sometimes a lot less, in energy costs. So if you think a 
street light uses $300 per year, you know, if this can save--
you know, if it only costs $100, it can save energy, it is a 
lot more cost efficient, a lot quicker than, say, a solar 
panel.
    Mr. DeFazio. Okay. Thank you. Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. Ms. Banks, I listened 
with great interest in your talking about the 11 trucks going 
to port that are the new ones. We sat through a meeting, very, 
very expensive. But is there--my question would be for the 
loans to the truckers themselves. The banks are not loaning, am 
I correct? So how do we get around it, whether it is because 
they don't have the money or because they don't want to use it, 
I am not quite sure. Do you have any idea what can be done to 
be able to help the truckers get the loans to be able to carry 
on?
    Ms. Banks. Well, perhaps a loan guaranty program that could 
work. And I know in California we have got some things going on 
with Assembly Bill 118 that may help. Although we still go back 
to the basic issue that most banks really do not make loans to 
independent owner-operators, and even the large fleets right 
now are having a very difficult time because they look at their 
cash flow and their income and they have certain, you know, 
debt-to-income ratios and things that they base their credit on 
that they are not able to access. They have already maxed out 
their credit.
    Ms. Napolitano. But where within these individual truck 
drivers, independent or fleet, would go to get their loans?
    Ms. Banks. Well, we have put a couple of programs together 
in California. One particular program is with a big fleet in 
west Sacramento, and we were able to get the owner of the 
company--and the company is a non-asset-based company which 
means they don't really own the trucks, but they contract out 
to a number of different independents--and we put a program 
together where the owner of the company agreed to co-sign for 
the drivers, and we were able with our credit and with a little 
bit of match that we put in from our EPA grant that we got, we 
were able to get financing through a very special bank on the 
west coast to get brand-new vehicles for 65 of their owner-
operators. But it is that kind of you have to go the extra mile 
to try to figure out a way to put a program together, and that 
is exactly what we did.
    Ms. Napolitano. Mr. Hodges, based on that, what about your 
independent truck drivers? They are the ones that are going to 
be left out. They can't get the insurance. They can't get the 
loan.
    Mr. Hodges. It is a diminishing population. It is a sad 
fact in our industry and the state of our economy that these 
truly entrepreneurial, very smallest element of business people 
in our society, in my opinion, are being squeezed out by a lot 
of issues, economics, regulations.
    Ms. Napolitano. How do we help them?
    Mr. Hodges. A difficult, a difficult process to help them, 
and we have got so many conflicting interests at stake here. 
The port of L.A. And Long Beach has basically taken a stance it 
is trying to freeze those people out of jobs up to and even 
including I think in L.A., saying you have to be a company 
driver in order to pull freight off of them.
    The simple answer is I am not sure. I do think the American 
spirit is alive and well in those individuals. As they might be 
displaced in one application, there will be opportunities in 
other applications.
    Ms. Napolitano. Do you have any suggestions?
    Mr. Hodges. I would say to those folks that are doing those 
things to look at other modes or other longer-haul application. 
They may have to--since the realization sets in that they may 
have to sell their existing truck, they buy another truck and 
lease it on to another company, a non-asset-based company or an 
asset-based company that also has owner-operators.
    So I think that spirit will be alive and well with them. 
They will go through a transition period where they are now 
transitioned into not mode, but another facet of our industry.
    Ms. Napolitano. Thank you, sir. Mr. Schaffer, I am very 
intrigued by the technology. In L.A. County, there is so much 
pollution. Will that affect its ability to be able to absorb 
the rays?
    Mr. Schaffer. That is a very good question. In fact, the 
technology strives on pollution. The higher the pollution 
levels, the greater the sunlight's intensity, the better the 
technology works. We have seen the best reduction in pollution 
under the worst-case scenarios. When is pollution at its worst? 
When it is the summertime months, when the sun is shining 
strong, because urban smog is produced. That is one of the 
components of sunlight. Our technology works under those worst-
case scenarios the best.
    Ms. Napolitano. And back to Mr. Hodges. Back in Los Angeles 
during the Olympics, the former Mayor Bradley went to all 
businesses and asked them to find a way to keep trucks off the 
road during the time that tourists were going to be there; in 
particular, nighttime drivers. And right along with what you 
are saying is they reduced a lot of the pollution because the 
sun triggers it. Anything being thought of being able to get 
with businesses and promote nighttime delivery, nighttime 
driving, nighttime delivery?
    Mr. Hodges. Our industry and my company in particular would 
not have any problem with that scheduling. Where we reach a 
major pullback is most--a lot of the businesses we deliver to 
and pick up from are small businesses, and in order for them to 
reallocate their resources and have their businesses open 24/7 
to receive their goods, it is going to drive their costs up 
significantly because they basically have to doubleman their 
businesses. You know, we have no problem when we deliver as a 
rule, but you are talking about basically transitioning our 
whole supply chain from what hasbeen what is fundamental for 
years and years to a different type of operation. We are just a 
service provider. We have no problem doing that, and in fact, 
we move strongly towards appointment deliveries for a lot of 
people, but those appointments are generally always in the 
daytime hours when most Americans want to work.
    Ms. Napolitano. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you. Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. I have a question, 
and Ms. Banks, I am sorry that you missed your plane, but I am 
glad that you are still here. You said there were how many 
trucks eligible for the kind of upgrade that you described?
    Ms. Banks. Well, nationwide there is about 600,000 long-
haul tractor-trailer trucks that run, you know, pretty much 
across State lines, east-west, north-south, all locations, all 
Lower 48.
    Ms. Edwards. And that is 5,000--with an upgrade 5,000 
gallons of fuel that is saved over a period of a year, right?
    Ms. Banks. Some of them would--you know, they may already 
have a partial solution. So it might be a little bit less. But 
other ones that we--one fleet that we upgraded, we actually 
saved over 7,000 gallons of fuel per truck per year. We took 
their fuel economy from 5.8 miles a gallon up to the high 
sevens, and some of their trucks in that 300-truck sample 
actually got over 9 miles a gallon. And the very highest one we 
have on record--and these are off of GPS technology that goes 
on our trucks, so it is very valid data--the very highest one 
we have on record got 9.75 miles a gallon.
    The fleet also implemented an incentive program where they 
give away a free Harley Davidson every quarter to the driver 
with the best fuel economy.
    Ms. Edwards. So that is an incentive.
    Ms. Banks. So that cut another half a mile a gallon off 
that.
    Ms. Edwards. I am interested because the program that you 
described, if you were operating a sort of fully evolved loan 
program, it is very similar with what happens with homeowners, 
for example, if you are buying a fuel-efficient home--some big 
upgrade to your heating or cooling system and you tack that 
on--you tack on the cost to your utility bill every month. It 
is a very similar kind of system. It is not rocket science. It 
is pretty simple.
    Ms. Banks. It is even better for the Federal Government, 
though, because when you raise the bottom line for the 
business, they pay more taxes and you get all of your money 
back, plus. It absolutely costs the Federal Government nothing.
    Ms. Edwards. So you don't have to answer this here, but I 
am interested to know if we were to just look at the high-
density corridors that are producing the most congestion and 
identify those as priority areas for centers to do this kind of 
upgrade, what that would look like, because that might be some 
kind of a model in a program where you are not fully 
implementing it across the country but you are looking at the 
areas that are producing the most congestion.
    Ms. Banks. Right. In my write-up, there is a highway map 
that shows the main freight corridors is about 10 or so of 
those. I would suggest that we would locate centers at 
intersections of those, and then you would probably only need 7 
to 10 additional centers to cover the whole Nation.
    Ms. Edwards. Thank you. And then just for the record, to 
note again your default rate, and so this is something that 
really does pay us all back over some period of time.
    Mr. Hodges, I was curious, in your testimony you indicate 
you de-stress the application of freight rail as an 
alternative, even over a period of time, for our sort of 
transportation--sort of freight transportation system. And I am 
really curious about that because I think some of us are 
thinking we need to do more serious upgrading of our freight 
system to allow for increased use of and more efficient uses of 
a freight rail system.
    Mr. Hodges. That is a question that plagues all of us. I 
come from an industry that is another industry, the rail 
industry, largest customer, so we are already the biggest users 
of that particular process. However, none of us wants to cross 
multiple railroad tracks when we go to the Kroger store or we 
go to get fuel or we go down to the local Wal-Mart. A highly 
functioning Wal-Mart requires six tractor-trailer loads of 
freight a day to keep it supplied. So there is going to be 
always multiple modes.
    We think that we lull ourselves into a sense of false 
security if we think that natural diversion to rail is going to 
happen. Longer trains inhibit our roadways and those kind of 
things. We think there are other alternatives to doing this, 
more productive trucks. Unfortunately for us, in our industry I 
have one load, one truck and one man. That is as productive as 
I can get, and now I am structured by I can only put so much on 
that load.
    What we would ask the Committee to do is look at things to 
help us be more productive, to add those things. If we really 
want to see a decrease in the number of trucks on the road, 
harmonize the LCV usage in the Western States, where it is less 
populous, in less urban areas. These are a huge help. There are 
some commonsense approaches that we can do.
    Intermodal, we just cannot see that that is the answer. We 
are not opposed to it. We are their biggest customer. Then you 
factor in time constraints--a real life story: My company, I 
was called on by CSX, a major north-south railroad, to try to 
use intermodal. Because we are trying to save money, we will do 
that. But the intermodal route was going to take the load from 
Nashville, Tennessee, to Chicago and then to New Jersey. You 
are adding a lot of utility, plus I lose 2 days of service.
    Ms. Edwards. Thank you.
    Mr. DeFazio. I thank the gentlelady for her questions. Just 
to follow up, you talked about the retrofit that would achieve 
the 5,000 gallons per year savings. What is the cost? I mean, 
you are getting some fairly expensive stuff, the high-
efficiency tires and rims and skirting and the APUs. I mean, 
what is the total package generally?
    Ms. Banks. Total package could be anywhere from $10,000 to 
$25,000 depending on what all you wanted. You can go for idle 
reduction. You could use a bunk heater which might be about 
$1,200, clear up to the fanciest APU. That might be about 
$12,000. For trailer skirts, you might be anywhere from $1,300 
up to about $4,500, depending on the brand, make, and model 
that you wanted to select. Diesel particulate filters are very 
expensive, no fuel economy; although they are being regulated 
in certain States, specifically in California.
    Mr. DeFazio. Do they inhibit mileage?
    Ms. Banks. Yes, they get about a 1 to 3 percent fuel 
penalty for----
    Mr. DeFazio. And what about the tires and rims?
    Ms. Banks. Tires, light weighting--not only just light 
weighting on the aluminum wheels, but light weighting all of 
the truck components and the trailer components can actually 
mean that you can deliver about 11 truckloads of freight in 10 
truckloads of, you know, depending on if the freight weighs out 
or cubes out, but as long as you are hauling heavy freight, you 
can save about 10 percent on your trips by light weighting a 
trailer.
    Also one thing that could be considered--and I know in 
Canada they do double--48 double trailers, 48-foot double 
trailers which have had incredible safety studies that showed 
that they are just as safe, if not even safer, than a normal 
truck and trailer. That would double--almost double the 
capacity of carrying freight, but unfortunately they are not 
legal here in the States.
    Mr. DeFazio. Mr. Hodges, is your association--I mean, 
hearing what she is saying about this retrofitting and that, is 
the association either contemplating or involved in any 
programs that, you know, get that information out and maybe 
find some ways to help finance those improvements for some of 
your members?
    Mr. Hodges. We are currently not working on, that I am 
aware of, any finance programs. We do constantly, through our 
technology and maintenance council, have regular sessions with 
all OEMs and encourage these kind of retrofits; but more 
importantly, we encourage those kind of things on new 
purchases. Most of these items are OEM supplies, and you can do 
them if they are cost-justified.
    One of the industry's biggest problems right now is on APUs 
and trying to justify the cost of an APU unit when you are 
talking anywhere from $7,500 to $12,000. And if we use, like in 
our company, a truck 3-1/2 years and then we sell it, you start 
to get cost prohibitive. Now, granted, when fuel goes to $4.50 
a gallon, you shorten up that term, but at its current levels 
and historic levels, it just becomes a cost-prohibitive thing. 
That is why we need or would like to have help from Congress to 
give us tax breaks.
    And recently, we just got the 12 percent FET waived on 
APUs. That was helpful. About the same time, the economy hit 
the absolute doldrums. So nobody is buying new trucks. I know 
for our company when we begin to respecify new trucks, we are 
probably going to take a hard look at putting those APUs on it 
now because of that 12 percent savings, which is $700 to $1,000 
depending on which model we go to. So it is kind of the way it 
works. Mr. Chairman, I trust that answered your question.
    Mr. DeFazio. Mr. Schaffer, in reading your testimony, I saw 
one thing that isn't just relevant to much of what you are 
testifying to, but you also talked about sound, and my, you 
know, very unscientific observation just driving around here 
and in Oregon is that it seems like asphalt generally reflects 
a lot less sound than the concrete they are using now. But you 
said something about sound mitigation or reduction with your 
materials.
    Mr. Schaffer. No. I think I referred to sound as one of the 
application techniques for the technologies being utilized in 
sound walls and sound barriers.
    Mr. DeFazio. So it is now sound reduction in terms of 
reflection off of--okay, all right. Anybody else have an urgent 
last question to follow up? No? Grace, okay.
    Ms. Napolitano. I always have questions, Mr. Chair.
    Mr. DeFazio. I know that, but we are going to limit you.
    Ms. Napolitano. Sure. In solar paneling, in photovoltaic, I 
want to talk to you, Mr. Tilley. Is there any problem with 
theft from people going in and stripping some of the existing 
stuff?
    Mr. Tilley. First, I would have to say I am not an expert 
in that because our product does not use any type of that. So I 
really couldn't answer that. Unfortunately, anything that can 
be stolen right now probably is being taken, but our product 
does not use that.
    Ms. Napolitano. Well, there is really a lot of new 
technology evolving, just like yours in the cement. Are we all 
hopefully keeping in mind that the technology may be evolving 
to help the truckers be able to drive more--and California 
doesn't want tandems. The freeways, the off-ramps, they are 
going to have a tremendous problem. We have gone through that. 
But how do we utilize new technology to be able to help the 
trucking industry and be able to have on-time delivery that the 
customers request and pay for? Anybody?
    Mr. Hodges. Well, I am not sure technology, and I 
understand that everybody has a bias against larger and bigger 
trucks. I have been fighting that for 45 years, so I understand 
that, but there are--if we could run interstate and interstate 
commerce and reduce the amount of fuel consumed in this 
interstate commerce, even if we broke those down in our 
terminals, which tend not to be inside the most congested area, 
then we would have that freedom and that--more importantly, 
that opportunity to save some serious fuel usage.
    See, in our business, if we can save a dollar of fuel, then 
we can save some CO2 output, but we also can take some money to 
the bottom line. It is win-win-win for us, but we are many 
times constricted by our interstate travel.
    Ms. Napolitano. Thank you, Mr. Chair.
    Mr. DeFazio. Thank you. I want to thank the panel for your 
excellent testimony, and again, as I said to the first panel, 
if you have any further thoughts or ideas, suggestions you want 
to make to the Committee, we are available and staff is always 
available. So thanks again, and hopefully your multimodal trip 
will work out there, Ms. Banks. We will get you back to the 
west coast somehow. Thank you.
    [Whereupon, at 1:23 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
